Audit Report




OIG-08-011
Report on Community Development Financial Institutions Fund’s
Fiscal Years 2007 and 2006 Financial Statements

November 16, 2007




Office of
Inspector General
Department of the Treasury
                                     DEPARTMENT OF THE TREASURY
                                           W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                           November 16, 2007


            MEMORANDUM FOR PETER DUGAS, ACTING DIRECTOR
                           COMMUNITY DEVELOPMENT FINANCIAL
                           INSTITUTIONS FUND

            FROM:                 Michael Fitzgerald /s/
                                  Director, Financial Audits

            SUBJECT:              Report on Community Development Financial Institutions
                                  Fund’s Fiscal Years 2007 and 2006 Financial Statements


            Attached are the Community Development Financial Institutions Fund (CDFI)
            financial statements for fiscal years 2007 and 2006, as required by the
            Government Corporation Control Act. Under a contract monitored by the Office of
            Inspector General, KPMG LLP, an independent certified public accounting firm, was
            engaged to perform an audit of the financial statements of CDFI as of September
            30, 2007 and 2006 and for the years then ended.

            The following reports, prepared by KPMG LLP, are incorporated in the attachment:

                •   Independent Auditors’ Report;
                •   Independent Auditors’ Report on Internal Controls; and
                •   Independent Auditors’ Report on Compliance and Other Matters.

            KPMG LLP issued a disclaimer of opinion on the financial statements as a result of
            a limitation on the scope of its work. Specifically, KPMG LLP was unable to obtain
            appropriate representations from CDFI management with respect to the financial
            statements as of and for the years ended September 30, 2007 and 2006, and
            could not determine the effect of the lack of such representations on CDFI’s
            financial statements. As a result, the scope of KPMG LLP’s work was not
            sufficient to enable them to express an opinion on CDFI’s financial statements.
            KPMG LLP’s Report on Internal Controls contained two significant deficiencies
            related to communications and team building and controls over awards monitoring,
            which were not considered material weaknesses. KPMG LLP’s Report on
            Compliance and Other Matters noted no instances of reportable noncompliance
            with laws and regulations, however, the lack of representations from management
            was noted as an other matter.
In connection with the contract, we reviewed KPMG LLP’s reports and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit in accordance with generally accepted government auditing
standards, was not intended to enable us to express, and we do not express, an
opinion on the financial statements or conclusions about the effectiveness of
internal control or compliance with laws and regulations. KPMG LLP is responsible
for the attached auditors’ reports dated November 14, 2007, and the conclusions
expressed in the reports. However, our review disclosed no instances where
KPMG LLP did not comply, in all material respects, with generally accepted
government auditing standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Donna Joseph, Audit Manager, Financial Audits
at (202) 927-5784.

Attachment
Community Development Financial Institutions Fund
     United States Department of the Treasury


      Performance and Accountability Report
                       FY 2007




                  CDFI Fund FY 2007 PAR – Page 1
                                  Table of Contents


Message from the Director……… ………………………………………...…….…….……………...………..……….3
Community Development Financial Institutions Fund Overview………………...…………………...…....…..………4
       Program Discussion and Analysis……………………………………..….………….……………….……...9
       Community Development Financial Institutions Program………………………….………...………….…10
       New Markets Tax Credit Program ……………..………………………….…………………….………….14
       Bank Enterprise Award Program……………..……………………….……………… ……………………18
       Native Initiatives…………………………….…………………………….………………………………...20
 Status of Financial Management……………….……………..….………….….…………………………...……….22
Independent Auditors’ Reports…………………...…….………….…..….………………..………….………....…..29
Financial Statements and Notes……………….……..……...…………………..………..……….…..…….………..40


Appendices
       Appendix A: FY 2007 CDFI Fund Award and Allocation Activities………….………….…………..App. A


       Appendix B: Total CDFI Fund Awards From Inception…….……….……..…………………………App. B


       Appendix C: Glossary of Terms…………………………………...…………..……..………. ……...App. C




                                  CDFI Fund FY 2007 PAR – Page 2
Message From The Director

I am pleased to present the U.S. Department of the Treasury Community Development Financial Institutions (CDFI)
Fund's Performance and Accountability Report for Fiscal Year 2007. As the former director testified before the U.S.
Congress in March, U.S. Treasury Secretary Henry M. Paulson's top priority is keeping the American economy strong
for our workers, our families, and our businesses. The CDFI Fund has a vital role in helping to fulfill this priority by
encouraging and creating more opportunity in America's neediest communities.

Over the past year, CDFI Fund staff has been hard at work to further our mission of expanding the capacity of
financial institutions to provide credit, capital, and financial services to underserved populations and economically
distressed communities in the United States. We would like to highlight just a few of our recent efforts that provide
deliverable results to the communities that are in the greatest of need.

As part of our mission, the CDFI Fund supports organizations that are on the front lines of creating real solutions for
those facing foreclosure in our nation's low-income communities. When making the 2007 CDFI Fund Program
Award announcement of over $27 million in Chicago this September, Treasury Secretary Paulson summed it up best:
“The President asked Treasury to focus on helping struggling homeowners keep their primary residence, and we will
rely on the help of CDFI organizations like Neighborhood Housing Services of Chicago to reach borrowers who are
likely to have trouble, and work with them to help them keep their homes." We provide community-based lenders
with the resources to do even more for their communities -- such as more foreclosure prevention counseling and
capital for market-rate loans to refinance mortgages and keep families in their homes.

We also are committed to helping those affected by Hurricane Katrina. In order to better understand the good work of
our CDFIs in this area, the former director requested that the CDFI Fund's Community Development Advisory Board
hold its annual meeting in New Orleans, Louisiana. This was the first time that the Advisory Board has met outside of
Washington, D.C., and they saw first hand how the CDFI Fund's CDFI Programs are providing critically needed
financial education and services to the Gulf Coast. And, through our New Markets Tax Credits Program, the CDFI
Fund has awarded $1 billion in tax credit allocations focused exclusively on the rebuilding and reconstruction of the
Gulf.

In closing, I again want to recognize and thank our dedicated CDFI Fund staff. They are passionate about the mission
of this organization and ensure that every distressed community in the nation has the opportunity to benefit from our
programs.




Peter Dugas
Acting Director




                                              CDFI Fund FY 2007 PAR – Page 3
Community Development Financial                                                     technical assistance to underserved
                                                                                    populations and low-income communities;
Institutions Fund
                                                                                2) the NMTC Program, which provides tax
                                                                                   allocation authority to CDEs, enabling
Overview                                                                           investors in these CDEs to claim tax
                                                                                   credits against their Federal income taxes.
The Community Development Financial Institutions                                   CDEs, in return, use the capital raised to
(CDFI) Fund was created for the purpose of promoting                               make investments in low-income
economic and community development through                                         communities;
investment in and assistance to community
development financial institutions (CDFIs). The CDFI                            3) the BEA Program, which provides cash
Fund’s role in promoting community and economic                                    awards to banks for increasing their
development was expanded in FY 2001 when the                                       investment in low-income communities
Secretary of the Treasury delegated to the CDFI Fund                               and/or in CDFIs; and
the responsibility of administering the New Markets
Tax Credit (NMTC) Program.                                                      4) Native Initiatives, which provides
                                                                                   Financial Assistance, Technical
Since its creation in 1994, the CDFI Fund has awarded                              Assistance, and training to Native CDFIs
$864 million to CDFIs, community development                                       and other Native entities proposing to
organizations and financial institutions through the                               become or create Native CDFIs.
Community Development Financial Institutions
(CDFI) Program, the Bank Enterprise Award (BEA)
Program, and the Native Initiatives. In addition, the
                                                                    What is a CDFI?
CDFI Fund has allocated $16 billion in tax credit
                                                                    Generally, CDFIs are community-based specialized
authority to Community Development Entities (CDEs)
                                                                    financial institutions that serve low-income people or
through the NMTC Program.
                                                                    work in economically distressed communities, often
                                                                    working in market niches that may be underserved by
Authorizing Legislation                                             traditional financial institutions. Only financial
                                                                    institutions certified by the CDFI Fund can receive
The CDFI Fund was established as a bipartisan                       CDFI funding through the CDFI Program and Native
initiative under the Riegle Community Development                   Initiatives. Certain other entities can receive awards
and Regulatory Improvement Act of 1994. The NMTC                    through the Native Initiatives.
Program was authorized through the Community
Renewal Tax Relief Act of 2000 and reauthorized as                  CDFIs seek to provide a unique and wide range of
part of the Tax Relief and Health Care Act of 2006.                 financial products and services that may help their
                                                                    customers build wealth and achieve the goal of
CDFI Fund’s Vision and Mission                                      participating in the ownership society. While the types
                                                                    of products made available are generally similar to
The CDFI Fund’s vision is an America in which all                   those provided by larger mainstream financial
people have access to affordable credit, capital, and               institutions such as mortgage financing for low-income
financial services. Its mission is to expand the capacity           and first-time homebuyers, small business lending, and
of financial institutions to provide credit, capital, and           lending for community facilities, CDFIs lend to and
financial services to underserved populations and                   make equity investments in markets not served by
economically distressed communities in the United                   traditional financial institutions. CDFIs may offer rates
States. The CDFI Fund achieves its purpose by                       and terms that are more flexible than those provided by
promoting access to capital and local economic growth               traditional financial institutions. CDFIs also seek to
through:                                                            provide services that will help ensure that credit is used
                                                                    effectively, such as technical assistance to small
        1) the CDFI Program, by making funding                      businesses, home buying and credit counseling to
           available to financial institutions that are             consumers. CDFIs include regulated institutions such
           certified or eligible to be certified as                 as community development banks, credit unions, and
           CDFIs, which in turn provide loans,                      non-regulated institutions such as loan funds and
           investments, financial services and                      venture capital funds, among others.


                                              CDFI Fund FY 2007 PAR -- Page 4
Certification of Community                                         Growth in Number of Certified CDFIs and CDEs
Development Financial Institutions and
Community Development Entities                                            End of FY          CDFIs             CDEs
                                                                            1997             190
CDFI certification is a designation conferred by the                        1998             262                 -
CDFI Fund. An organization that meets six statutory
                                                                            1999             334                 -
and regulatory criteria may be certified as a CDFI.
                                                                            2000             415                 -
1. Has a primary mission of promoting community                             2001             468                31
   development;                                                             2002             625              541
2. Serves principally an investment area or targeted                        2003             694             1,184
   population;
3. Is an insured depository institution, or makes loans                     2004             728             1,585
   or development investments as its predominant                            2005             752             1,954
   business activity;                                                       2006             762             2,294
4. Provides development services (such as technical                         2007             778             2,680
   assistance or counseling) in conjunction with its
   financing activity;                                             CDEs are located in 49 states, the District of Columbia,
5. Maintains accountability to its target market; and              Puerto Rico, and the U.S. Virgin Islands. CDFIs are
6. Is a non-governmental entity and cannot be                      located in all 50 states, the District of Columbia, Puerto
   controlled by any governmental entities.                        Rico, and the U.S. Virgin Islands.
The certification is a requirement for accessing a                 Community Development Financial Institutions
financial assistance award from the CDFI Fund                      Program: Performance Goal: Build the capacity and
through the CDFI Program and the Native American                   coverage of CDFIs to provide credit, capital, and
CDFI Assistance (NACA) Program, and certain                        related services to otherwise underserved markets.
benefits through the BEA Program. As of September
30, 2007 there were 778 Certified CDFIs.                           Through the CDFI Program, the CDFI Fund provides
                                                                   Financial Assistance in the form of grants, loans, and
A Community Development Entity (CDE) is a                          equity investments to CDFIs, and Technical Assistance
domestic corporation or partnership that is an                     grants to CDFIs and entities that plan to become
intermediary vehicle for the provision of loans,                   CDFIs.
investments, or financial counseling in low-income
communities through the NMTC Program. CDEs must
                                                                   •    Financial Assistance (FA) awards are in the form
demonstrate a primary mission of serving low-income
                                                                        of grants, loans, and equity investments to CDFIs
communities and low-income persons, and must
                                                                        that have comprehensive business plans for
demonstrate that they are accountable (through
                                                                        creating community development impact and that
representation on a governing board or advisory board)
                                                                        demonstrate the ability to leverage private sector
to residents of low-income communities. CDEs are
                                                                        sources of capital.
certified as such by the CDFI Fund and are eligible to
apply for tax credit allocations through the NMTC
                                                                   •    Technical Assistance (TA) awards are for CDFIs
Program.
                                                                        and entities proposing to become CDFIs in order to
                                                                        build their capacity to advance community
Many CDEs create multiple subsidiary CDEs to own
                                                                        development and meet capital access needs in their
specific assets or classes of assets, and thus the number
                                                                        target markets. Technical Assistance awards can
of CDEs has grown to 2,680 as of September 30, 2007.
                                                                        also be accessed by larger and more established
Benefits of being certified as a CDE include being able
                                                                        CDFIs to support their continued development.
to: (1) apply to the CDFI Fund to receive a NMTC
allocation to offer to its investors in exchange for
equity investments in the CDE and/or its subsidiaries;
or (2) receive loans or investments from other CDEs
that have received a NMTC Allocation. CDEs must be
certified to receive allocations of tax credits.

                                             CDFI Fund FY 2007 PAR -- Page 5
New Markets Tax Credit Program: Performance                        activities in economically distressed communities
Goal: Attract private sector capital into low-income               (those with high poverty and unemployment) and/or
communities through CDEs.                                          investments in CDFIs. The size of the award is a
                                                                   percentage of the increase in activities from one annual
The NMTC Program is intended to spur the investment                reporting period to the next.
of new private sector capital into low-income areas
through CDEs, which in turn use the privately                      Native Initiatives: Performance Goal: Build the
managed investment vehicles to make loans and equity               capacity and coverage of CDFIs and other institutions
investments in businesses and real estate projects in              to provide credit, capital, and related services to
low-income communities.                                            Native Communities.

By making an equity investment in a CDE, individual                The CDFI Fund’s Native Initiatives are intended to
and corporate investors can receive a tax credit against           assist entities in overcoming barriers that prevent
their Federal income taxes worth 39 percent of the                 access to credit, capital and financial services in Native
value of the amount invested in the CDE over 7 years.              American, Alaskan Native, and Native Hawaiian
                                                                   communities. The central program of the Native
The NMTC Program was authorized under the                          Initiatives is the Native American CDFI Assistance
Community Renewal Tax Relief Act of 2000. The                      (NACA) Program, which is targeted to increasing the
statute included $15 billion in allocation authority for           number and capacity of existing or new CDFIs that
seven years. Under the Hurricane Katrina Gulf                      serve Native Communities. In addition, the Native
Opportunity (GO) Zone Act of 2005 an additional $1                 Initiatives includes training that seeks to foster the
billion in allocation authority was directed to the                strengthening or development of Native CDFIs.
rebuilding and renewal of the GO Zone. The NMTC
Program was reauthorized for one-year, through the                 Performance Measures: This Performance and
end of 2008, as part of H.R. 6111 the Tax Relief and               Accountability report includes a discussion of those
Health Care Act of 2006. The provision will allow for              performance measures the CDFI Fund considers
an additional $3.5 billion in tax allocations under the            the most significant. For a discussion about all of the
program through 2008. Included in this provision was a             CDFI Fund's performance measures, see the applicable
requirement that the Department prescribe regulations              appendix in the FY 2007 Performance and
to ensure that non-metropolitan (rural) counties receive           Accountability Report for the Department of the
a proportional allocation of Qualified Equity                      Treasury.
Investments (QEIs).
                                                                   Allocation of CDFI Funding
Calendar Year 2002 was the first year in which
applications for NMTC were submitted to the CDFI
Fund and, as of the end of FY 2007, five allocation                The CDFI Fund’s appropriations comprise program
rounds have been completed providing allocations of                funds and administrative funds. Program funds are
tax credit authority that will support, in the aggregate,          amounts that are used for program awards (such as
equity investments of $16 billion (including $1 billion            grants, loans, equity investments, and training
for GO Zone allocations). One more allocation round                contracts); administrative funds are amounts used to
remains through which the CDFI Fund will allocate tax              cover the costs to administer all programs, including
credit authority supporting $3.5 billion in investor               the NMTC Program. As noted above, the Secretary
capital plus.                                                      has delegated authority to the CDFI Fund to allocate
                                                                   tax credits through the NMTC Program. As NMTCs
Bank Enterprise Award Program: Performance                         are not monetary awards, they are not reflected in the
Goal: Increase FDIC-insured institutions’ investments              chart below. The NMTC funding as shown in the chart
in community development and economic revitalization               represents program administration costs.
in distressed communities.

The Bank Enterprise Award (BEA) Program
recognizes the key role played by traditional financial
institutions in community development lending and
investing. Through the BEA Program, the CDFI Fund
provides monetary awards to regulated banks and
thrifts for increasing their investments and financial

                                             CDFI Fund FY 2007 PAR -- Page 6
Sources of CDFI Funding                                                          Uses of CDFI Funding
Congress appropriates CDFI Funds annually to the                                 During FY 2007, the CDFI Fund used CDFI Funding
CDFI Fund; each appropriation can be used over two                               of $57.1 million as follows:
fiscal years. Appropriations include fiscal year budget
authority and, if any unobligated CDFI Funds from the                                                    Uses of CDFI Funding
prior year carryover. The annual appropriation amount                                                       (amounts in millions)
includes borrowing authority to make loans.
                                                                                                                             FY 2007 FY 2006
                    Sources of CDFI Funding                                      Amounts Funded
                           (amounts in millions)
                                                                                  CDFI Program                                  $27.4     $27.2
                                                                                  BEA Program                                    11.2      12.0
                                         FY 2007        FY 2006
                                                                                  Native Initiatives                              3.6       4.6
                                                                                  Administrative Costs                           13.5      15.5
Appropriations                              $54.5        $ 54.5
Use of No-Year Account                          -           1.3
                                                                                  Total Amounts Funded                          $55.7     $59.3
Prior Year Amounts Deobligated,
 Used to Fund Current Year                                                        Amounts Not Obligated                             1.4     1.1
 Obligations                                    .4          1.0
Carryover from Prior Year                      1.5          3.0                  Total CDFI Funding Used                        $57.1     $60.4
Borrowing Authority Used                        .7           .6

Total Sources of CDFI Funds                  $57.1       $ 60.4

 (1) The No-Year account consist of investment income and                                                Amounts Funded in FY 2007
proceeds from the redemption of investments.                                                                    (amounts in millions)

Note – above amounts do not include appropriations received pertaining to                          Administrative                            CDFI Program,
credit subsidy reestimates.                                                                        Costs, $13.5                                 $27.4


                                                                                         Native
                                                                                   Initiatives, $3.6



                                                                                                       BEA Program,
                                                                                                          $11.2




                                                           CDFI Fund FY 2007 PAR -- Page 7
ORGANIZATION OF THE CDFI FUND

The CDFI Fund’s organization structure consists of the Director, Deputy Director for Policy and Programs, Deputy
Director for Management, Chief Financial Officer, Manager for Public and Legislative Affairs, Legal Counsel, Chief
Information Officer (CIO), and various program and administrative support offices. The organization chart of the
CDFI Fund is shown below.




                      COMMUNITY DEVELOPMENT FINANCIAL INSTITUTIONS CDFI FUND
                                        SEPTEMBER 2007


                                                                                     Director

                                  Legal Counsel                                                                               Financial Strategies & Research

                                       CIO                                                                                     Public and Legislative Affairs

                       Deputy Director for Policy & Programs                                                              Deputy Director for Management/CFO

     CDFI Programs Manager                          New Markets Tax Credit Manager                        Financial Manager                                Grants Management Manager

   Program Operations Manager                                  BEA Manager                  Compliance, Evaluation and Monitoring Manager                       Administrative Officer




                                                                   CDFI Fund FY 2007 PAR -- Page 8
Program
Discussion
and Analysis




           CDFI Fund FY 2007 PAR -- Page 9
Community Development Financial                                       FY 2007, the CDFI Fund had certified 778 CDFIs
                                                                      serving both rural and urban areas in all states and the
Institutions Program                                                  District of Columbia, Puerto Rico, and the Virgin
                                                                      Islands. The majority of certified CDFIs as of the end
Through the Community Development Financial                           of FY 2007 are loan CDFI Funds and credit unions.
Institutions (CDFI) Program, the CDFI Fund uses                       Far smaller percentages are banks, thrifts and
federal resources to invest in and build the capacity of              depository holding companies, and venture CDFI
CDFIs to serve low-income people and communities                      Funds. The below percentages are very similar to
lacking adequate access to affordable financial products              those as of the end of the prior year.
and services. The CDFI Fund provides monetary
awards for Financial Assistance (FA) and Technical                    Breakdown of Types of Certified CDFIs
Assistance (TA) grants through its CDFI Program.
CDFIs use FA awards to further goals such as:                         Not surprisingly, the most populous states have the most
                                                                      certified CDFIs: 28 percent of certified CDFIs are
    •   Economic development (job creation, business                  headquartered in the five most populous states (New
        development, and commercial real estate                       York, Texas, North Carolina, Florida, and California)
        development);
                                                                      CDFIs include banks, credit unions, loan funds, and
    •   Affordable housing (housing development and                   venture capital funds, with each providing a different
        homeownership); and                                           mix of products geared to reach specific customers, as
                                                                      follows:
    •   Community development financial services
        (provision of basic banking services to                            •      Community development banks are for-profit
        underserved communities and financial literacy                            corporations which provide capital to rebuild
        training).                                                                economically distressed communities through
                                                                                  targeted lending and investment;
Certified CDFIs
                                                                           •      Community development credit unions are
A certified CDFI is one that has been certified by the                            non-profit cooperatives owned by members
CDFI Fund as meeting all of the following statutory and                           which promote ownership of assets and
regulatory criteria:                                                              savings and provide affordable credit and
                                                                                  retail financial services to low-income people;
1. Has a primary mission of promoting community
   development;                                                            •      Community development loan funds (usually
2. Serves principally an investment area or targeted                              non-profits) provide financing and
   population;                                                                    development services to businesses,
3. Is an insured depository institution, or makes loans                           organizations and individuals in low-income
   or development investments as its predominant                                  urban and rural areas and can be further
   business activity;                                                             categorized based on the type of client served:
4. Provides development services (such as technical                               micro-enterprise, small business, housing and
   assistance or counseling) in conjunction with its                              community service organizations; and
   financing activity;
5. Maintains accountability to its target market; and                      •      Community development venture capital
6. Is a non-governmental entity and cannot be                                     funds are both profit and non-profit
   controlled by any governmental entities.                                       organizations which provide equity and debt-
                                                                                  with-equity features for businesses in
In addition to seeking certification to receive financial                         distressed communities.
and technical assistance from the CDFI Fund,
organizations pursue CDFI certification in order to
leverage CDFI Funds from non-federal sources such
as banks, foundations, and state and local
governments.

The certification of organizations as CDFIs has been a
long-standing goal of the CDFI Fund. By the end of

                                               CDFI Fund FY 2007 PAR -- Page 10
CDFI Customers                                                     respond to demand for affordable financial products
                                                                   and services in economically distressed markets and by
CDFI customers consist of the following:                           low-income families. CDFIs respond to this demand
                                                                   through the provision of loans, investments, training,
                                                                   technical assistance, and basic financial services such as
    •   Small business owners who provide
                                                                   checking or savings accounts. Based on data supplied by
        employment opportunities and needed services
                                                                   CDFIs required to report to the CDFI Fund, it is
        to disadvantaged communities;
                                                                   estimated that CDFIs leverage their FA awards with
                                                                   other dollars by an average of 19:1.
    •   Affordable housing developers that construct
        and rehabilitate homes in low-income
                                                                   Applicants can apply for Financial Assistance only,
        communities;
                                                                   Technical Assistance only, or a combination of both
                                                                   through a single application. Those applicants
    •   Community facilities that provide child care,              applying for Financial Assistance will have to indicate
        health care, education and social services in              which of two categories types it is applying under:
        underserved communities;                                   Category 1 – Small and Emerging CDFI Assistance
                                                                   (SECA); and Category 2 – Core.
    •   Commercial real estate developers that finance
        the acquisition, construction or rehabilitation
        of retail, office, industrial and community                Changes to the Financial Assistance
        facility space in low-income communities; and              Component During FY 2007
    •   Individuals who are provided affordable                    There were no substantive changes to the Financial
        banking services including checking and                    Assistance component in FY 2007.
        savings accounts, alternatives to predatory
        financial companies, and mortgages and other               FY 2007 Awards
        kinds of loans.
                                                                   During FY 2007, the CDFI Fund received 184
Financial Assistance Component                                     applications requesting $138 million in Financial
                                                                   Assistance and Technical Assistance, including 53
The CDFI Program consists of two components: the                   SECA applicants requesting $23.8 million and 82 Core
Financial Assistance (FA) Component, which is by far               applicants, seeking $109.7 million.
the largest component of the program, and the
Technical Assistance (TA) Component. Prior to FY                   The CDFI Fund awarded $25.8 million to 49
2003, the FA Component was referred to as the Core                 organizations in FY2007, including 14 SECA awards for
Component. Through the FA Component, the CDFI                      $3.5 million and 35 Core awards for $22.3 million. This
Fund invests in CDFIs that are able to demonstrate that            is compared to 52 organizations in FY2006 that received
they have the financial and managerial capacity to                 $24.47 million in FA awards. The following bar graph
provide affordable and appropriate financial products              shows the total amount of Core funds awarded since
and services that positively impact their communities,             2002. The FY 2007 award amount reflects the
are viable financial institutions, and use and leverage            appropriated dollars for that year under a Continuing
CDFI Fund dollars effectively.                                     Resolutions from FY06.

Through the CDFI Program, the CDFI Fund invests in
and supports community-based organizations, known as
community development financial institutions - or
CDFIs – that provide financing and related services to
communities and populations that lack access to credit,
capital and financial services. FA awards are made in
the form of equity investments, loans, deposits, or
grants, depending on applicant needs, and must be
matched by the applicant with funds of the same type
from non-federal sources. FA awards enable CDFIs to
leverage private capital to


                                            CDFI Fund FY 2007 PAR -- Page 11
                      Total Amount of Core/FA Awarded
                             (amounts in millions)                                    More established CDFIs also use TA grants to build
  $50.0
                                                                                      their capacity to provide new products, serve current
  $40.0                                                                               markets in new ways, or enhance the efficiency of
  $30.0                                                                               their operations; examples include upgrading computer
  $20.0                                                                               hardware and software.
  $10.0

   $0.0
                                                                                      Changes to the Technical Assistance
          2002     2003        2004       2005          2006        2007
                                                                                      Component During FY 2007
                                Amount Awarded
                                                                                      There were no substantive changes to the Technical
                                                                                      Assistance component in FY 2007.
The bar graph shows a significant difference between
the FY 2003 and FY 2004 amounts, which was due to                                     FY 2007 Awards
program changes made in FY 2003. The change resulted
in a smaller number of applications received that year.                               In FY 2007, the CDFI Fund received 49 applications
Amounts not awarded during FY 2003 were carried over                                  requesting $4.8 million in TA only grants of which $1.5
and awarded in FY 2004. The reduction in FA awards                                    million was awarded to 19 organizations, compared to
from FY 2004 to FY 2005 is attributable to these                                      the $1.9 million awarded to 21 organizations during FY
additional awards made in FY 2004 combined with a $5                                  2006.
million reduction in appropriated dollars for FY 2005.
                                                                                                           Total Amount of TA Awards
                                                                                                              (amounts in millions)

                                                                                            $6                   $4.9
           Relationship Between $$ Requested and $$ Awarded                                 $5
                                                                                            $4
                          (amounts in millions)
                                                                                            $3                           $2.1    $1.9    $1.5
  $250                                                                                      $2     $0.8 $0.3
          $198
  $200                                                                                      $1
                                          $160          $147
  $150                        $125                                                          $0
                   $107                                            $138                           2002   2003   2004    2005    2006    2007
  $100
             $42                  $47                                                                           Fiscal Year
                      $23                     $33          $24         $25.8
   $50
    $0
          2002     2003        2004        2005         2006        2007

                      Amount Requested    Amount Awarded




* FY 2003 and FY 2004 amounts consist of FA applications
and awards; Core applications and awards are prior to FY
2003.


Technical Assistance Component
The Technical Assistance (TA) Component provides
grants to build the capacity of start-up and existing
CDFIs by acquiring prescribed types of products or
services including technology (usually efficiency
enhancing technology such as computers and loan
management software), staff training, consulting
services to acquire needed skills or services (such as a
market analysis or lending policies and procedures), or
staff time to conduct discrete, capacity-building
activities (such as website development).


                                                               CDFI Fund FY 2007 PAR -- Page 12
CDFI Program Performance
CDFI Program awardees report their annual
performance to the CDFI Fund through the CDFI Fund’s
web-based reporting system, the Community Investment
Impact System (CIIS). Each awardee has 180 days from
its fiscal year end to report through CIIS. This time
allows the awardee to complete its annual audit and
enables the CDFI Fund to verify reported information
against the audit.

The performance information provided herein pertains to
each awardee’s 2006 fiscal year. It should also be noted
that due to the length of time from notice of award
through award disbursement, award deployment by an
awardee, and receipt by the CDFI Fund of awardee
impact information, the effect of the CDFI Fund’s
awards made during any given year is not known until
quite some time later.

Results based on information entered into CIIS by 212
CDFI Program awardees are shown in the table below:

                  Performance of 212 CDFI Program
                     Awardees During FY 2006 *

1. # of Full Time Jobs Created or Maintained (53)                  35,022
2. # of Businesses Financed (49)                                    5,957
3. # of Commercial Real Estate Properties
   Financed (37) **                                                   922

4. # of Affordable Housing Units Financed (33)                    14,083
5. # of Homebuyers Who Obtain Financing (48) **                     2,060
6. # of Accounts Opened to the Unbanked (11)                        7,838
7. Dollars, in millions, Leveraged with Private
   Investments                                                       $781

8. # of Individuals Provided with Financial
    Literacy and Other Training (165)                             156,443
9. Individual Development Accounts (IDAs)
   Provided by CDFIs (32):                                          2,434

10. Dollar amount, in millions, of IDAs (32):                       $1.93

* As of the date this report was produced, the CDFI Fund had not completed
  the “cleansing” process for CIIS data. During cleansing, the CDFI Fund
  reviews the data for consistency with the CDFI’s financial statements and
  overall reasonableness. The data in this table represent 22 cleansed and 190
  uncleansed CIIS reports. Numbers in parentheses are the number of CDFI
  awardees reporting on this particular measure.

** Financing applies for the purposes of construction and rehabilitation,
   respectively.




                                                                CDFI Fund FY 2007 PAR -- Page 13
New Markets Tax Credit Program                                      allocation authority, including the final $400 million in
                                                                    special GO Zone allocation authority.
The New Markets Tax Credit (NMTC) Program permits                                 Number of Certified Com munity Development
taxpayers to receive a credit against Federal income                                                 Entities    2 ,294 2,680
taxes for making Qualified Equity Investments (QEIs) in
                                                                                                                  1,953
designated Community Development Entities (CDEs).                            2,000
                                                                                                         1,639
Substantially all of the qualified equity investment must
                                                                             1,500             1,1 94
in turn be used by the CDE to provide investments in
low-income communities.                                                      1,000
                                                                                         558

The credit provided to the investor totals 39 percent of                        500
the cost of the investment and is claimed over a seven-
                                                                                  -
year credit allowance period. In each of the first three                               2002    2003     2004     2005     2006   2007
years, the investor receives a credit equal to five                                                     Fiscal Year
percent of the total amount paid for the stock or capital
interest at the time of purchase. For the final four                Demand for the tax credits has been high, as 1,336
years, the value of the credit is six percent annually.             applicants have requested credits supporting over $136
Investors may not redeem their investments in CDEs                  billion in equity investments – over eight times the
prior to the conclusion of the seven-year period                    amount of allocation authority available for
                                                                    distribution by the CDFI Fund. Through the first five
To qualify as a CDE, an entity must be a domestic                   allocation rounds, only 22% of applicants have been
corporation or partnership that: 1) has a mission of                selected to receive an award. The average tax credit
serving, or providing investment capital for, low-                  allocation award through the first five rounds was
income communities or low-income persons; 2)                        approximately $54 million
maintains accountability to residents of low-income
                                                                       Completed Funding Rounds (Dollars in Billions)
communities through their representation on a
governing board of or advisory board to the entity; and
3) has been certified as a CDE by the CDFI Fund. As                               Applications                     Allocations
of September 30, 2007, 2,680 organizations have been                 Round       Number Amount                   Number     Amount
certified as CDEs by the CDFI Fund, compared to                          1            345      $25.8               66             $2.5
2,294 as of one year earlier.                                            2            271      $30.4               63             $3.5
                                                                         3            208      $22.9               41             $2.0
                                                                         4            254      $28.3               63             $4.1
Results of First Four NMTC Allocation                                    5            258      $27.9               61             $3.9
Rounds                                                                                1336     $135.3             294            $16.0

Throughout the life of the NMTC Program, the CDFI                   2007 NMTC Allocation Round
Fund is authorized to allocate to CDEs the authority to
issue to their investors up to $19.5 billion in equity              (Round 5) Summary
against which NMTCs can be claimed, including $1
billion of special allocation authority made available              In October of 2007, the CDFI Fund announced that 61
under the Gulf Opportunity (GO) Zone Act of 2005 to                 applicants had been awarded $3.9 billion in NMTC
be used for the recovery and redevelopment of the                   allocation authority, including 11 applicants that were
Hurricane Katrina GO Zone.                                          awarded $400 million for specific use in the recovery
                                                                    and redevelopment of the Hurricane Katrina GO Zone.
Allocations are awarded annually through a
competitive process. To date, the CDFI Fund has                     The 61 allocatees are headquartered in 24 different
completed five allocation rounds and has made 294                   states and the District of Columbia, but anticipate
awards totaling $16 billion in allocation authority,                making awards in 45 different states, as well as D.C
including $1 billion in special GO Zone allocation                  and Puerto Rico. Based upon information reported by
authority under the 2006 and 2007 allocation round.                 the allocatees, it is anticipated that approximately
The 2007 allocation round provided $3.9 billion in                  $2.238 billion (or 57.3%) will be invested in major
                                                                    urban areas; approximately $951 million (or 24.3%)
                                                                    will be invested in minor urban areas; and

                                             CDFI Fund FY 2007 PAR -- Page 14
approximately $720 million (or 18.4%) will be                                       investments. In real dollars, this means at
invested in rural areas.                                                            least $501 million above and beyond what
                                                                                    is minimally required by the NMTC
                     Investment Area                                                Program will be invested in low-income
                       ($ in millions)                                              communities.

                         720                                            NMTC Activities to Date
                                         2,238
              951
                                                                        Allocation agreements have been executed with each
                                                                        of the 233 allocatees from the first four rounds. As of
                                                                        September 30, 2007, allocatees had reported raising
                                                                        QEIs totaling $8.35 billion.

           Major Urban     Minor Urban    Rural Counties                Allocatees report QEI and QLICI activity to the CDFI
                                                                        Fund through the Community Investment Impact
                                                                        System (CIIS). Allocatees that have raised QEIs are
These 61 allocatees have committed to achieving                         required to complete an annual Institution Level
results above and beyond minimal program                                Report (ILR) in CIIS. Allocatees that have made
requirements:                                                           QLICIs are also required to submit an annual
                                                                        Transaction Level Report (TLR) in CIIS. An
   ¾ Fifty-two of the 61 of the allocatees indicated                    allocatee’s ILR, TLR, and audited financial statements
     that 100% of their investment dollars would be                     are due 180 days after the end of its fiscal year.
     made either in the form of equity, equity
     equivalent financing, or debt that is at least                     All results in this section represent the allocatees’ data
     50% below market and/or is characterized by                        reported through their FY 2006. As shown in the table
     at least five concessionary features, with the                     below, allocatees reported making $2.47 billion of
     remaining nine allocatees committing to                            loans and investments in QALICBs (Qualified Active
     providing debt that is at least 33% below                          Low Income Community Businesses) in FY 2006, and
     market and/or characterized by at least four                       a total of $5.45 billion of loans and investments in
     concessionary features. Such features include,                     QALICBs since the program’s inception. In FY 2006,
     among other things; subordinated debt,                             70% of the loans and investments in QALICBs
     reduced origination fees, higher than standard                     supported real estate development or rehabilitation. It
     loan-to-value ratios, lower than standard debt                     is projected that these loans and investments will result
     service coverage ratios, non-traditional                           in the development or rehabilitation of 19 million
     collateral, and longer than standard                               square feet of commercial real estate, and the creation
     amortization periods.                                              of more than 90,000 construction jobs.

       •    All 61 allocatees indicated that at least                   The remaining 30% of the loans and investments to
            80% of their activities will be provided in                 QALICBs were made to operating businesses in low-
            areas of higher economic distress (and/or                   income communities. The businesses financed by
            areas targeted for development by other                     allocatees created or maintain nearly 8,200 Full Time
            government programs) than are minimally                     Equivalent (FTE) jobs in FY 2006 alone. Finally, the
            required under NMTC Program rules,                          allocatees reported that 98% of the loans and
            including 47 indicated that 100% of their                   investments they provided in FY 2006 had better rates
            activities would be provided in such areas.                 and terms than could be offered in the prevailing
                                                                        market.
       •    All 61 of the allocatees indicated that they
            would invest more than the minimally                        In FY 2006, allocatees also reported making over $95
            required 85% of QEI dollars into                            million in direct investments into other CDEs,
            Qualified Low-Income Community                              purchasing $49 million in loans from other CDEs, and
            Investments (QLICI), and 49 of the 61                       providing financial counseling and other services to
            allocatees indicated that at least 97% of                   678 businesses in low-income communities.
            their QEI dollars would be invested into
            qualified low-income community                              (Note: Table on following page).


                                                 CDFI Fund FY 2007 PAR -- Page 15
Performance of 63 NMTC Allocatees (6/1/07)
                                                                          FY 2006 Performance*              FY 2003 - FY 2006
Type of QLICI                                                                                            Cumulative Performance**
QALICB: Real Estate Development and Rehabilitation
 1 Loans and investments supporting real estate development                    $1.745 billion                    $3.707 billion
    and rehabilitation in low-income communities.                          340 loans/investments             757 loans/investments
 2 Square footage of commercial real estate projected to be                19 million square feet           46 million square feet +
    developed and rehabilitated.
 3 Number of full-time equivalent (FTE) construction jobs                         90,385 FTEs                    145,995 FTEs
    projected to be created.
QALICB: Business Support ***
 1 Loans and investments supporting businesses operating in                    $725 million                      $1.74 billion
    low-income communities.                                                340 loans/investments            739 loans/investments
 2 Number of full-time equivalent (FTE) jobs created or                         8,145 FTEs                    19,629 FTEs ++
    maintained.**** ++
CDE
 1 Loans and investment in other CDEs.                                           $95 million                     $122 million
                                                                            14 loans/investments             25 loans/investments
Loan Purchases
 1 Purchase of loans from CDEs.                                                    $49 million                    $119 million
FCOS
 1 Investment in Financial Counseling and Other Services                          $317 thousand                 $567 thousand
    (FCOS).
 2 Number of businesses receiving FCOS.                                     678 businesses served           1,201 businesses served

* Fiscal Year (FY) 2006 performance is based on data available as of September 5, 2007. At that time, the CDFI Fund had not
completed the “cleansing” process for CIIS data. During cleansing, the CDFI Fund reviews the data for consistency and general
logic. The data in the table represent both cleansed and uncleansed CIIS reports.
** Cumulative performance is based on data available as of September 5, 2007. Each year, allocatees are permitted to update data
reported in previous fiscal years to correct errors or provide newly available information. As a result, the cumulative figures may not
exactly add up to the FY03 thru FY06 annual performance figures reported by the CDFI Fund in this and previous Performance and
Accountability reports.
*** Business Support includes loans and investments with a purpose of "Other,” which includes, for example, equity investments in
operating businesses.
**** The FY 2006 jobs figure includes jobs created in FY 2006 by businesses financed in prior years as well as businesses financed
in FY 2006.
+ FY06 PAR report showed a cumulative total of 43 million square feet. The cleansing process was not finished at the time resulting
in the reporting deficiency. The cumulative total being reported this FY is more accurate than the previous year.
++ FY06 PAR report shows a cumulative total of 20,788 FTEs. The cleansing process was not finished at the time resulting in the
reporting deficiency. The cumulative total being reported this FY is more accurate than the previous year.




                                               CDFI Fund FY 2007 PAR -- Page 16
Bank Enterprise Awards Program                                        CDFIs serve as a delivery mechanism for banks to
                                                                      partner with to better serve highly distressed
The Bank Enterprise Award (BEA) Program recognizes                    neighborhoods.
the key role played by traditional financial institutions in
community development lending and investing. It                       Eligibility
provides incentives for regulated banks and thrifts to
invest in CDFIs and to increase their lending and                     All depository institutions insured by the FDIC are
financial services in economically distressed                         eligible to apply for a BEA Program award. The BEA
communities. Providing monetary awards for                            Program rewards actual increases in the dollar volume
community reinvestment leverages the CDFI Fund’s                      of Qualified Activities from a Baseline Period to a
dollars and puts more capital to work in distressed                   later Assessment Period. Qualified Activities for the
communities throughout the nation. By statute, the BEA                BEA Program are divided into three priority areas:
Program is highly targeted to areas with larger
populations. In general, approximately 4000 Census                    1. CDFI-Related Activities: Equity investments
Tracts qualify as “distressed communities” under the                     (grants, stock purchases, purchases of partnership
program.                                                                 interests or limited liability company membership
                                                                         interests), equity-like loans, and CDFI support
BEA Program awards are based on a percentage of the                      (loans, deposits or technical assistance) to certified
increase in the amount of Qualifying Activities from a                   CDFIs (referred to as CDFI Partners).
Baseline Period to a later Assessment Period (the
corresponding time the following year). Qualified                     2. Distressed Community Financing Activities:
Activities consist primarily of financial assistance                     Loans or investments for affordable home
provided to certified CDFIs as well as the various loans                 mortgages, affordable housing development,
made by financial institutions (for example, affordable                  education, small businesses, and commercial real
housing loans, small business loans, real estate                         estate development in economically distressed
development loans), and services (such as access to                      communities.
automated teller machines and opening of savings
accounts).
                                                                      3. Service Activities: Deposits, financial services
                                                                         (such as check-cashing, money orders, or certified
Promoting CDFI Investments Through                                       checks), electronic transfer accounts (ETAs),
the BEA Program                                                          individual development accounts (IDAs), First
                                                                         Accounts, or community services provided to low-
The BEA Program has a dual purpose. The first                            to moderate-income individuals or the institutions
priority is to increase banks' financial support of                      serving them.
CDFIs in order to build CDFI self-sufficiency and
capacity (referred to as CDFI Related Activities). The                Changes to the BEA Program During FY
second priority is to build the capacity of Federal
Deposit Insurance Corporation (FDIC) insured                          2007
depository institutions to expand their community
development lending and investments within severely                   There were no substantive changes to the BEA Program
underserved areas (referred to as the Distressed                      in FY 2007.
Community Financing Activities and Service
Activities).                                                          FY 2007 BEA Program Awards
By statute, the CDFI Fund must award applicants in                    For FY 2007, the CDFI Fund received 71 eligible
the CDFI Related priority before making awards to                     applications requesting just over $29 million,
applicants in the Financing Activities priority and                   compared to 59 applications requesting almost $45
Service Activities priority.                                          million in the prior year. The CDFI Fund selected 51
                                                                      FDIC-insured institutions to receive approximately
The prospect of a BEA Program award encourages                        $11 million in awards. The FY 2007 applicants are
banks to achieve this first priority by providing low                 headquartered in 18 states, compared to the 15 states
cost capital and operating support to CDFIs, which has                represented in the prior year.
helped to create and sustain a network of CDFIs.


                                                  CDFI Fund FY 2006 PAR – Page 17
FY 2007 applicants provided $407.3 million in loans               BEA Program Awardee Activities
or investments in distressed communities, $62.8
million in loans, deposits and technical assistance to            The trend of investments in distressed communities and
CDFIs, and $883,050 in equity investments and grants              investments in CDFIs by BEA awardees is shown in the
to CDFIs.                                                         Distribution of BEA Program Awards by Category
                                                                  chart.
FY 2007 Community Impact
                                                                                Distribution of BEA Program Awards By
The 71 FY 2007 eligible applicants increased their
                                                                                     Category (amounts in millions)
qualified community development activities by $227
million over the prior year.
                                                                      $25.0

•   $193.2 million increase in loans and investments                  $20.0
    in distressed communities;
•   $31.8 million increase in loans, deposits, and TA                 $15.0
                                                                                 $19.8            $3.3
    to CDFIs;                                                                             $2.4
                                                                      $10.0                                       $4.2
•   $883,050 increase in equity investments or grants;                                                    $5.9
                                                                                                                          $1.5
                                                                                                 $13.7
    and                                                                $5.0
                                                                                         $11.4
                                                                                                                          $9.7
                                                                                                                  $7.6
•   $97,000 increase in financial services in distressed                         $3.2                     $3.9
    communities.                                                       $0.0
                                                                                2002     2003    2004    2005    2006    2007

                                                                                 CDFI Related Activities
                                                                                 Dist ressed Community Financing Services




                                              CDFI Fund FY 2006 PAR – Page 18
Native Initiatives                                                NACA applications requesting nearly $11 million,
                                                                  including 10 requests for $7.7 million in FA. The
                                                                  Fund awarded $3.6 million to 19 organizations,
The CDFI Fund’s Native Initiatives originated from
                                                                  compared to $4.2 million for 21organizations in
the findings of its “Report on the Native American
                                                                  FY2006.
Lending Study” delivered to Congress in November
2001. The study evaluated access to credit, capital and
financial services in Native American, Alaska Native              Financial Assistance Grants
and Native Hawaiian communities and identified
barriers to provide such financing. To address these              Under the NACA Program, eligible Native CDFIs can
barriers, the CDFI Fund’s Native Initiatives increases            apply for FA awards (such as loans or grants
opportunities to access credit, capital and financial             depending on the source of matching CDFI Funds) to
services by creating or expanding Native CDFIs                    support their financing activities. In FY2007, the
primarily serving Native communities. The Fund’s                  Fund made three FA awards for about $1.3 million.
Native Initiatives helps create Native CDFIs as well as           Two of the three organizations also received TA grants
to strengthen the operational capacity of existing ones.          totaling $251,947. There were fewer awards in
                                                                  FY2007 compared to FY 2006 in which six FA awards
The Native Initiatives are based on six objectives:               were made with a total of $2.25 million and five of the
                                                                  organizations also received a total of $519,000 in TA
1. Expanding training opportunities in community                  grants.
   development finance for Native communities;
2. Offering technical assistance to overcome barriers             Technical Assistance Grants
   to creating and sustaining Native CDFIs;
3. Offering Technical and Financial Assistance                    TA grants help awardees build their capacity to
   awards targeted to meet the needs of existing or               provide financial services and products. Awardees can
   proposed Native CDFIs;                                         use TA grants to: 1) acquire products or services such
4. Encouraging mainstream financial institutions to               as technology or staff and board training; 2) engage
   increase their financial products and services in              consulting services to undertake activities like a
   Native communities;                                            market analysis or development of lending policies
5. Supporting financial education activities to Native            and procedures; 3) pay for staff time to conduct
   Communities; and                                               capacity-building activities like website development;
6. Facilitating networking and in-depth training                  and 4) general on-going operational activities such as
   forums in community development finance.                       staff salary, rent and utilities.

                                                                  In FY 2007, the CDFI Fund awarded $2.3 million in
The CDFI Fund’s Native Initiatives achieves the above
                                                                  TA grants to 19 organizations, similar to the awards it
six objectives through two principle strategies: 1)
                                                                  made in FY 2006 when it provided $2 million to 20
CDFI funding for the Native American CDFI
                                                                  organizations.
Assistance (NACA) Program, which increases the
number and capacity of existing or new Native CDFIs,
and 2) a NACA training initiative that fosters new                Training Initiatives
Native CDFIs and strengthens the operational capacity
of existing ones.                                                 Under the Native Initiatives program, the CDFI Fund
                                                                  engages a contractor to provide specific training and
NACA Program FY 2007                                              technical assistance to existing and proposed Native
                                                                  CDFIs. The CDFI Fund has contracted with the First
                                                                  Nations Oweesta Corporation (Oweesta) to deliver
The NACA Program helps proposed and existing                      four 3- day financial education workshops which are
Native CDFIs build their capacity to address the                  based on the Building Native Communities financial
community development and capital needs of Native                 education series specifically tailored to a Native CDFI
communities. The Program provides Financial                       audience. Accompanying this training is a technical
Assistance (FA) and Technical Assistance (TA) grants              assistance component, allowing up to six days of on-
to Native CDFIs. In FY 2007, the Fund received 29




                                            CDFI Fund FY 2006 PAR – Page 19
site assistance to Native communities to help them                 entrepreneurship education into their development
develop financial education programs for their                     services programming. Individual follow-up technical
communities. This Fund- sponsored training will                    assistance will focus on working with the
provide Native CDFIs with the tools and guidance to                organizations to help adapt the principles and
engage other community organizations to build an                   curriculum to each organization’s menu of services.
effective program that is user friendly to all age
groups.                                                            The CDFI Fund also awarded a contract to
                                                                   Opportunity Finance Network (OFN). This contract
Also as part of the contract, Oweesta will partner with            will extend the Native CDFI series of workshops and
other organizations to develop a Native focused                    TA for one additional year. In addition, it will extend
national entrepreneurship training and technical                   TA for past participants of the program. Furthermore,
assistance program that builds on current local efforts,           this contract will: 1) introduce a training program
captures effective practices, and encourages                       targeted to Native credit unions; 2) develop an impact
sustainable and collaborative models. Oweesta and its              measurement tool for use by Native CDFIs; 3)
partners will examine the potential of integrating                 introduce a peer shadow/mentoring program; and 4)
existing entrepreneurship curricula in an effort to                provide TA for mature and existing Native CDFIs to
maximize time and reduce expenses. Participating                   enable these organizations to strengthen or increase the
Native CDFIs and other organizations, such as tribal               services they are able to offer.
colleges, will learn how to incorporate experiential




                                             CDFI Fund FY 2006 PAR – Page 20
Status of
Financial
Management




         CDFI Fund FY 2006 PAR – Page 21
Financial Management                                              Description of the CDFI Fund’s Financial
                                                                  Management System
This section includes the assurance statement required
under the Federal Managers’ Financial Integrity Act, a            The CDFI Fund contracts for accounting services under
summary of the results of the FY 2007 financial                   a franchise agreement with the Bureau of the Public
statement audit, a summary of the financial management            Debt’s Administrative Resource Center (ARC) in
initiatives of the CDFI Fund during FY 2007, and a                Parkersburg, West Virginia. While the ARC maintains
discussion of the CDFI Fund’s financial position and              the accounting system relating to the Fund’s
results of operations during the past fiscal year.                transactions, the Fund is responsible for generation of all
                                                                  source documents and the accuracy of all accounting
                                                                  information.
Management Assurances
                                                                  The CDFI Fund’s financial management system includes
                                                                  the transactions maintained by ARC in the accounting
            Department of the Treasury                            system as well as records maintained and procedures
         Community Development Financial                          performed by the CDFI Fund’s financial management
                 Institutions Fund                                staff in Washington, D.C. The Fund’s financial
       Annual Assurance Statement for FY 2007                     management staff is directly responsible for the
                                                                  administrative control of its funds, financial planning,
  Management of the Community Development
                                                                  budget formulation and execution, and review and
Financial Institutions Fund is responsible for
establishing and maintaining internal control and                 analysis of financial information.
financial management systems that meet the objectives
of the Federal Managers’ Financial Integrity Act                  FY 2007 Financial Statement Auditors’
(FMFIA). With the exception discussed in the                      Report
paragraph below, Fund management can provide
reasonable assurance that the objectives of FMFIA are
met and that there are no material weaknesses in the              The Fund received a disclaimer of opinion on its FY
design or operation of internal controls as of September          2007 financial statements. The auditors also reported
30, 2007.                                                         two significant deficiencies, neither of which were
                                                                  considered material weaknesses. The auditors’ report
Performance information pertaining to the number of               can be found starting on page 29.
jobs created, and a portion of the leverage calculation
(private sector dollars leveraged using Fund financial
assistance awards) are compiled from information self             FY 2007 Financial Management
reported by awardees. Although there is no third party            Initiatives
verification of the reported information, the Fund is not
aware of any integrity problems with the information.             In FY 2007, the financial management focus was on
                                                                  continuing to implement and enhance prior year
Fund management can also provide reasonable
assurance that internal control over financial reporting          information technology initiatives.
was operating effectively as of September 30, 2007.
                                                                  Community Investment Impact System
                                                                  (CIIS)
                     Peter Dugas                                  CIIS is a web-based system designed to collect an
                    Acting Director                               Institution Level Report (ILR) and Transaction Level
                                                                  Report (TLR) from CDFIs and CDEs. The CDFI CIIS
                                                                  data collected includes the organization’s profile,
                                                                  financial position, portfolio, community impacts,
                                                                  development services, other products and services, and
                                                                  compliance measures. The CDE CIIS data collected



                                              CDFI Fund FY 2006 PAR – Page 22
includes the organization’s profile, QEI distribution,            Grants.gov, therefore meeting this goal. Under this
portfolio, loan purchases, and financial counseling and           initiative, we have begun realizing cost savings
other services. In fiscal year 2007, CIIS was used by 210         associated with the intake and processing of our grant
CDFIs and 135 CDEs. Fiscal year 2007 showed a                     applications. Grants.gov also undertook a modernization
tremendous increase in institutional and transaction level        effort in FY 2007 to update its underlying technology
data being reported as 260 organizations submitted the            from the Pure Edge Viewer to Adobe. This was a
details of over 53,000 portfolios of loans and equity             phased transition with both technologies being accepted
investments. This is more than double the number of               for a period of time. The CDFI Fund worked with our
transactions reported in the previous year.                       applicants to inform them of this change and trained
                                                                  them on the new technology.
In the past year, the CDFI Fund has used the CIIS data
to analyze the characteristics of CDFIs (including their          Migration to a Grants Management Line
loan and investment portfolios, capital under
management, operating revenues, and overall financial             of Business for Internal Application
strength) and assess the impact CDFIs are having in the           Processing
communities they serve. The first round of this analysis
was published in June 2007 in “Growth, Diversity,                 The Federal Financial Assistance Management
Impact: A Snapshot of CDFIs in FY 2003.” The CDFI                 Improvement Act and the President’s Management
Fund will continue to use the institutional and                   Agenda also require that all federal grant making
transaction level data to assess the effectiveness of             agencies completely migrate their electronic grant
CDFIs and CDEs in bringing economic development to                processing systems to one of three federally selected
distressed areas. The data will also be used to educate           centers of excellence. This initiative is known as the
the public about community development finance, and to            Grants Management Line of Business. The CDFI Fund
compare CDFI and CDE portfolios over time. FY 2007                has selected the Department of Health and Human
marks the first time that the Fund made the CIIS data             Services, Administration for Children and Families, as
available to the public (within the parameters of all             our grant processor. Planning for the transition and a fit
applicable Federal information protection, privacy and            gap analysis continued in FY 2007 and the entire
confidentiality laws). The Fund provided public-use               transition must be completed by FY 2011. During the
CIIS data and financial support to twelve independent             transition period, the CDFI Fund will continue to run
research teams as part of its CDFI Research Initiative.           parallel systems for seamless operations and there will
This research will culminate in a series of round-table           be no disruption of services to our customers. When this
discussions and published volume of research papers in            initiative is completed, it is anticipated that there will be
the spring and summer of 2008.                                    a substantial cost savings to the CDFI Fund pertaining to
                                                                  the processing of grant applications.
Much of the performance information in The
Community Development Financial Institutions Program              Federal Funding Accountability and
section of the Discussion and Analysis section was                Transparency Act
provided by an analysis of CIIS data.
                                                                  The Federal Funding Accountability and Transparency
Migration to Grants.gov for Paperless                             Act of 2006 requires that all grant making agencies fully
Processing of Applications                                        disclose all organizations that receive federal funds.
                                                                  This information will be reported to the public on a
                                                                  website maintained by the Office of Management and
The Federal Financial Assistance Management
                                                                  Budget. The CDFI Fund has already taken steps to
Improvement Act (P.L. 106-107), and the President’s
                                                                  comply with this act. We have responded to several data
Management Agenda require all federal grant making
                                                                  calls and have begun the planning process for reporting
agencies to migrate 100% of their electronic program
                                                                  our data to this system. Reporting of this data will
applications to the Grants.gov system administered by
                                                                  include award data starting with FY 2007 when the
the Department of Health and Human Services by
                                                                  system is up and running.
September 30, 2007. During FY 2007, the CDFI Fund
migrated the last of its applications (Native Initiatives) to



                                              CDFI Fund FY 2006 PAR – Page 23
Management Responsibilities                                                             Summarized Financial Data
                                                                                          (amounts in millions)
CDFI Fund management is responsible for the fair                                                                            Increase /
                                                                                                           FY 2007 FY 2006 (Decrease)
presentation of information contained in the principal               Assets                                 $144.2 $146.5        ($2.3)
financial statements in conformity with accounting                   Liabilities                             $56.2  $52.0         $4.2
principles generally accepted in the United States of                Net Position                            $88.0  $94.5        ($6.5)
America. Management is also responsible for the fair                 Revenue and Financing Sources           $59.0  $59.8        ($0.8)
presentation of the CDFI Fund’s performance measures                 Expenses                                $60.6  $65.0        ($4.4)
in accordance with the Office of Management and                      (Shortage) of Revenue and Financing
Budget requirements. The quality of the CDFI Fund’s                    Financing Sources Under Expenses       ($1.6)   ($5.2)     $3.6
internal control structure rests with management, as does
the responsibility for identification of and compliance
with applicable laws and regulations.                                Assets
Limitations of the Financial Statements                              Assets decreased by $2.3 million during the year,
                                                                     consisting primarily of a $3.1 million decrease in loans
The financial statements report the financial position and           receivable, offset by an increase of $.8 million in other
results of operations of the Community Development                   assets.
Financial Institutions Fund for the years ended
September 30, 2007 and 2006, pursuant to the                         Fund Balance with Treasury
requirements of 31 U.S.C. 3515(b). While the
statements have been prepared from the books and
records of the CDFI Fund in conformity with accounting               While the Fund Balance with Treasury reflected virtually
principles generally accepted in the United States of                no change from the prior year, this is contrary to the
America, the statements are in addition to the financial             Fund’s expectation that the balance would continue to
reports used to monitor and control budgetary resources              decrease each year. During FY 2006, for example, the
which are prepared from the same books and records.                  Fund Balance with Treasury decreased by $12.6 million.
The statements should be read with the realization that              The reason for no change in the balance during FY 2007
they are for a component of the U.S. Government, a                   was due primarily to the fact that none of the $11.2
sovereign entity, and that the payment of all liabilities            million in FY 2007 Bank Enterprise Award (BEA)
other than for contracts can be abrogated by the                     program awards were disbursed during the year. Most of
sovereign entity.                                                    the amounts awarded in each of the past three BEA
                                                                     funding rounds were disbursed in the same year as the
                                                                     award. BEA awards were not disbursed due to limited
Analysis of Financial Position and Results                           staff resources under this program during the award
of Operations                                                        process, which delayed the processing of the awards and
                                                                     pushed the related disbursements into FY 2008. This
                                                                     was also the reason for the increase in awards payable.
                Allocation of Fund Assets
                   September 30, 2007
                   (amounts in millions)                             Loans Receivable
                              $3.6
                     $34.2               $59.5                       Loans receivable are increased when loan awards (under
                                                                     the CDFI and Native Initiative programs) are disbursed
                             $46.9                                   by the CDFI Fund and decreased for loan repayments
                                                                     and loan write-downs. During FY 2007, loans decreased
                                                                     by $4.1 million, resulting from repayments of $4.5
   Fund Balance With Treasury    Loans Receivable, Net               million and write-downs of $.6 million, offset by
   Investment in Awardees, Net   Other                               additional loans disbursed during the year of $1 million.
                                                                     The allowance for loan losses decreased by $1 million.




                                                 CDFI Fund FY 2006 PAR – Page 24
The effect of these transactions resulted in a net decrease      Net Position
in loans receivable of $3.1 million.
                                                                 Net position decreased during the year by $6.5 million.
Liabilities                                                      Net position will change during the year as a result of
                                                                 the following: 1) the difference between appropriations
The increase in liabilities during the year of $4.2 million      received (net of appropriations cancelled, rescinded and
consisted of an increase in awards payable of $7.9               adjusted for credit subsidy re-estimates) and
million offset by a decrease in debt of $3.6 million and a       appropriations used; 2) any adjustment of the Fund’s
decrease in other liabilities by $.1 million.                    subsidy re-estimate, and 3) the excess (or shortage) of
                                                                 revenue and financing sources over (under) expenses.
Awards Payable                                                   During FY 2007, appropriations received (net of
                                                                 amounts cancelled and rescinded) were $52 million, and
                                                                 appropriated capital used was $56 million. This
Awards payable consists primarily of undisbursed BEA
                                                                 difference of $4 million decreases net position.
awards (recorded as a liability at the time of award).
                                                                 During the year the CDFI Fund adjusted its subsidy
Awards payable has decreased significantly over the past
                                                                 reestimate downward by $.3 million, which required an
several years, going from $64.7 million at the end of FY
                                                                 additional borrowing from Treasury. As stated above,
2001, to $5.5 million at the end of the FY 2006. This
                                                                 the amount borrowed is used to pay back to the Treasury
decrease occurred for two reasons: 1) the Fund’s annual
                                                                 Department the excess subsidy amounts appropriated in
budget appropriation for the BEA Program peaked in FY
                                                                 prior years. This $.3 million repayment reduces net
2001 with a $46 million appropriation, decreasing to $11
                                                                 position.
million in FY 2007, so there was a smaller amount of
BEA Program awards to make each year, and 2) the
                                                                 The shortage of net revenue and financial sources under
CDFI Fund has been able to disburse a significant
                                                                 expenses contributed an additional $2.2 million of the
amount of BEA awards over each of the past several
                                                                 decrease in net position (this amount is discussed
years, since there is no matching funds requirement for
                                                                 below).
BEA awardees.

However, due to limited staff resources, the Fund was            Revenue and Financing Sources,
not able to disburse any of the FY 2007 BEA awards               Expenses, and Shortage of Revenue and
during FY 2007, and so this served to increase awards            Financing Sources Under Expenses
payable. Note that this also affected the Fund Balance
with Treasury, in that Fund Balance stayed virtually the                       Revenue and Financing Sources
same as of the end of FY 2007 and FY 2006, rather than                              (amounts in millions)
following the trend of annual decreases as in prior years.
                                                                       $100    $83.0
                                                                                                $71.9
Debt                                                                    $80                              $59.8   $59.0
                                                                                        $51.3
                                                                        $60

The decrease in debt of $3.6 million relates to                         $40
repayments of amounts borrowed from Treasury to fund                    $20
loans to awardees. Principal repayments collected from                   $0
                                                                               2003    2004     2005    2006     2007
awardee loans during the year are used to repay the
                                                                                          Fiscal Year
Treasury borrowings, and therefore amounts collected
and repaid to Treasury each year will vary from year to
year, as they are a function of awardee loan terms.




                                             CDFI Fund FY 2006 PAR – Page 25
Revenue and Financing Sources                                                 Administrative Expenses
The primary source of revenue and financing sources for                       FY 2007 administrative expenses were $1.6 million less
the CDFI Fund is the annual appropriation used to fund                        than the prior year. There were two main reasons for
expenses (“appropriated capital used” as reflected in the                     this decrease: 1) FY 2006 administrative costs were
statement of operations). Pursuant to Federal grant                           unusually high, resulting from the write-off of $2.5
accounting requirements, the amount of appropriated                           million in software costs in development which were
funds recognized as revenue is, with certain adjustments,                     determined in FY 2006 to have no future benefit; and 2)
equal to the amount of operating expenses for the year.                       personnel costs increased during FY 2007.
Operating expenses for the year excluding those paid for
by others were $57.1 million; however, $1.1 million of
this amount was funded from the no-year account (this                         Bad Debt Expense
amount pertains to CDFI grants), which is not part of the
annual appropriation. Accordingly, appropriated capital                       Bad debt expense is a function of the amount of loans
used is equal to this net $56 million amount. An                              receivable at year-end. The Fund’s allowance for bad
explanation for the $2.9 million decrease in operating                        debts is equal to 25 percent of loans receivable. Loans
expenses from FY 2006 to FY 2007 is discussed in the                          receivable decreased during FY 2007 by $4.1 million,
Expenses section below.                                                       resulting in a decrease to the allowance for bad debts of
                                                                              $1 million (the amount of the allowance for bad debts is
Expenses                                                                      a function of the loan receivable balance). This decrease
                                                                              consisted of loans written off totaling $.6 million and the
The change in the CDFI Fund’s operating expenses                              FY 2007 bad debt expense of $437,000.
during FY 2007 consisted of the following:
                                                                              Shortage of Revenue and Financing
             Comparison of Operating Expenses                                 Sources Under Expenses
             Fiscal Years 2007 and 2006
                  (amounts in millions)
                                                                              As stated above, the amount of appropriated capital used
                                 FY 2007        FY 2006 Difference            (the largest component of the CDFI Fund’s revenue) is,
 Award Expenses                    $43.8         $43.6        $0.2            with certain adjustments, equal to the amount of
                                                                              operating expenses for the year. Accordingly, the
 Administrative Expenses           $14.3         $15.9        ($1.6)
                                                                              shortage of revenue and other financing sources over
 Bad Debt Expense                  ($0.4)        $1.1         ($1.5)          expenses (the CDFI Fund’s “net loss”) will consist of the
 Total Operating Expenses          $57.7         $60.6        ($2.9)          amount by which expenses not covered by budgetary
                                                                              resources exceeds revenue and financial sources other
                                                                              than appropriated capital used.
Award Expenses
There was virtually no change in award expenses during                        For FY 2007, expenses not covered by budgetary
the year, due to the fact that the FY 2007 and FY 2006                        resources totaled $4.1 million, consisting of interest
appropriation for awards was the same each year.                              expense on Treasury borrowings of $2.4 million, $1.1
                                                                              million of grants and loan subsidy disbursed from the
                      Awar d Expenses                                         CDFI Fund’s no-year account, and $.6 million of loans
                    (a mounts in millions)
                                                                              written off during the year. The no-year account is a
                                                                              non-appropriated account consisting of interest income,
    $ 70.0
              $13.5                                                           dividend income, and proceeds from the redemption of
    $ 60.0
    $ 50.0
                                $8.4                                          equity investments, accumulated since CDFI Fund
    $ 40.0                              $10.3     $9.6                        inception.
    $ 30.0    $53.9    $16.7
                                $48.5
    $ 20.0                              $33.3     $34.3                       Revenue and financial sources other than appropriated
    $ 10.0             $20.3
                                                                              capital used and imputed financing sources totaled $1.9
      $0.0
             2003      2004   2005       2006    2 007                        million consisting of interest and dividends of $1.7
                           Fisca l Ye ar
               CD FI Prog ram     BEA Prog ram


                                                          CDFI Fund FY 2006 PAR – Page 26
million and a $.2 million realized gain on the disposition
of investments. The excess of the $3.5 million of
expenses not covered by appropriations exceeds the $1.9
million of revenue and financing sources other than
appropriated capital by $1.6 million, representing the
shortage of revenue and financing sources under
expenses.




                                            CDFI Fund FY 2006 PAR – Page 27
This page intentionally blank.




CDFI Fund FY 2006 PAR – Page 28
Independent
Auditors’
Reports




        CDFI Fund FY 2006 PAR – Page 29
                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                                       Independent Auditors’ Report


Inspector General, U.S. Department of the Treasury, and the
Director, Community Development Financial Institutions Fund:


We were engaged to audit the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (the Fund) as of September 30, 2007 and
2006, and the related statements of operations and changes in net position and cash flows for the years then
ended. These financial statements are the responsibility of the Fund’s management.
We were unable to obtain appropriate representations from management of the Fund with respect to the
accompanying financial statements as of and for the years ended September 30, 2007 and 2006. We
cannot determine the effect of the lack of such representations on the Fund’s financial position as of
September 30, 2007 and 2006, or the results of its operations or its cash flows for the years then ended.
Because management of the Fund did not provide us with appropriate representations and we were unable
to apply other auditing procedures to satisfy ourselves as to such representations, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on these financial statements
as of and for the years ended September 30, 2007 and 2006.
The information in the Fund’s Program Discussion and Analysis section is presented for the purpose of
additional analysis and is not a required part of the financial statements. We were unable to complete
limited procedures over the Fund’s Program Discussion and Analysis section because of the limitations on
the scope of our audit described in the second and third paragraphs of our report. Certain information
presented in the Program Discussion and Analysis section is based on fiscal year 2007 and 2006 financial
statements on which we have not expressed an opinion. We did not audit this information and,
accordingly, we express no opinion on it.
The information in the Community Development Financial Institutions Fund Overview, Status of Financial
Management, and the information in the appendices is presented for purposes of additional analysis and is
not required as part of the financial statements. This information has not been subjected to auditing
procedures and, accordingly, we express no opinion on it.




                                                                    30 

                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
In accordance with Government Auditing Standards, we have also issued our reports dated November 14,
2007, on our consideration of the Fund’s internal control over financial reporting and our tests of its
compliance with certain provisions of laws, regulations, contracts, and grant agreements, and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over financial
reporting and compliance and the results of that testing, and not to provide an opinion on the internal
control over financial reporting or on compliance. Those reports are an integral part of an audit performed
in accordance with Government Auditing Standards and should be read in conjunction with this report.




November 14, 2007




                                                    31 

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                          Independent Auditors’ Report on Internal Controls


Inspector General, U.S. Department of the Treasury, and the
Director, Community Development Financial Institutions Fund:

We were engaged to audit the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (the Fund) as of September 30, 2007 and
2006, and the related statements of operations and changes in net position and cash flows for the years then
ended. These financial statements are the responsibility of the Fund’s management.
We were unable to obtain appropriate representations from management of the Fund with respect to the
accompanying financial statements as of and for the years ended September 30, 2007 and 2006. We
cannot determine the effect of the lack of such representations on the Fund’s financial position as of
September 30, 2007 and 2006, or the results of its operations or its cash flows for the years then ended.
Because management of the Fund did not provide us with appropriate representations and we were unable
to apply other auditing procedures to satisfy ourselves as to such representations, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on these financial statements
as of and for the years ended September 30, 2007 and 2006, and we have issued our report thereon dated
November 14, 2007 stating this.

INTERNAL CONTROL OVER FINANCIAL REPORTING

The management of the Fund is responsible for establishing and maintaining effective internal control. In
planning our fiscal year 2007 and 2006 audits, we considered the Fund’s internal control over financial
reporting by obtaining an understanding of the design effectiveness of the Fund’s internal control,
determining whether internal controls had been placed in operation, assessing control risk, and performing
tests of controls as a basis for designing our auditing procedures for the purpose of expressing an opinion
on the financial statements. We limited our internal control testing to those controls necessary to achieve
the objectives described in Government Auditing Standards and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. We did not test all internal
controls relevant to operating objectives as broadly defined by the Federal Managers’ Financial Integrity
Act of 1982. The objective of our audit was not to express an opinion on the effectiveness of the Fund’s
internal control over financial reporting. Accordingly, we do not express an opinion on the effectiveness of
the Fund’s internal control over financial reporting.

Our consideration of internal control over financial reporting was for the limited purpose described in the
preceding paragraph of this section and would not necessarily identify all deficiencies in the internal
control over financial reporting that might be significant deficiencies or material weaknesses.

A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect misstatements
on a timely basis. A significant deficiency is a control deficiency, or combination of control deficiencies,
                                                                    32 

                                   KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                   a member of KPMG International, a Swiss cooperative.
that adversely affects the Fund’s ability to initiate, authorize, record, process, or report financial data
reliably in accordance with U.S. generally accepted accounting principles such that there is more than a
remote likelihood that a misstatement of the Fund’s financial statements that is more than inconsequential
will not be prevented or detected by the Fund’s internal control over financial reporting. A material
weakness is a significant deficiency, or combination of significant deficiencies, that results in more than a
remote likelihood that a material misstatement of the financial statements will not be prevented or detected
by the Fund’s internal control.

In our fiscal year 2007 audit, we considered the deficiencies, described below, to be significant deficiencies
in internal control over financial reporting. However, we believe that none of the significant deficiencies
described below are material weaknesses. Exhibit I presents the status of prior year reportable conditions.

As discussed above, the scope of our work was not sufficient to express an opinion on the statements of
financial position of the Fund as of September 30, 2007 and 2006, and the related statements of operations
and changes in net position and cash flows for the years then ended, and accordingly, other internal control
matters may have been identified and reported had we been able to perform all procedures necessary to
express an opinion on those financial statements.

Significant Deficiencies

        Improving Communications and Team Building

        Members of management of the Fund are not communicating effectively with each other. Certain
        issues/concerns are known by certain members of management and not known by others. Certain
        systems (for example, the Report Monitoring System) are available tools at the Fund, but not
        everyone who needs to, completely understands the systems and how they can properly be used to
        benefit of the entire organization. When issues are brought up, discussed, and resolved, in some
        cases, the ultimate resolution is not communicated to all parties involved. This has been exhibited
        with the difficulties in management agreeing to the controls over the awards system. The cause
        may be the lack of communication in keeping all parties informed and the inability to work
        cohesively. The lack of communication could be attributable to a need for clearer lines of roles
        and responsibilities among the Fund offices. The inability to work as a cohesive team has resulted
        in inhibited communications among members of Fund management, resulting in functions such as
        award monitoring not being carried out as effectively and efficiently as it could be.

        Recommendations

        The Fund should consider Communications and/or Team Building Training to improve
        communications in its management group. The Fund should also re-evaluate the roles and
        responsibilities of each of its offices to ensure the functions are in line with the responsibilities of
        that office, and the award monitoring responsibilities are being carried out in the most efficient and
        effective manner. In addition, the Fund should ensure its weekly management group meetings
        serve to:
                 a.	 convey information to all members of management,
                 b.	 identify concerns at an early stage,
                 c.	 enable management to develop teams to resolve the concerns, and
                 d.	 present a forum for management to report back to the entire management group on
                      issue resolution.




                                                      33 

Management’s Response

We agree that clearly defined and documented office roles and responsibilities would help the
Fund to carry out its mission in a more efficient manner. We will also ensure that the weekly
management group meetings address the areas identified above.

Improvements Needed in Controls over Awards Monitoring
The Fund has not developed sufficient procedures to determine if awardees are in compliance with
the terms of their assistance agreements when they fail to submit annual information, as required
by the award agreements. Specifically, while the Fund has a process in place which requires the
submission of annual information, including Single Audit reports, if required, used to monitor
awardees compliance with the terms of their assistance awards, it does not adequately monitor the
receipt of this information. In addition, the Fund does not follow-up on issues addressed by the
information received. Accordingly, this could result in awardees using Federal funds inconsistently
with the objectives of the grant; programs and resources may not be protected from waste, fraud,
and mismanagement; laws and regulations may not be followed; excess funds not spent may not be
returned; and reliable and timely information may not be obtained, maintained, reported, or used
for decision-making.
In addition, we noted that for loans, while the Fund does require the related awardees to provide
required information during the term of the assistance agreement, the Fund does not properly
monitor the awardees’ reporting to determine if they are submitting their required information in a
timely manner, in accordance with the assistance agreements. The Fund does not have a formal,
written policy on the requirements for follow-up with awardees that do not submit their required
information. The Fund currently doesn’t use these financial statements as part of its process in
evaluating awardee ability to continue to make loan payments. The maintenance and continual
monitoring of current financial information for awardees that the Fund has provided loans to is
essential for the Fund to ensure the continued viability of these awardees and thus, the ultimate
collectibility of these loans.

Recommendations

We recommend that the Fund follow the procedures as stated in their Compliance Monitoring and
Reporting Policies for all awardees. The Fund should improve its compliance and monitoring
procedures to implement a process that specifically identifies awardee responsibilities for
complying with these reporting requirements each year and the specific follow-up procedures that
should be performed and documented.

Management should establish procedures that are designed to ensure that all loan awardees provide
the Fund with all of the information required by their assistance agreement. Management should
implement procedures that are designed to notify the awardees when this information is not
received in a timely manner and the consequence of being non-compliant with the Assistance
Agreement. Management should also include the awardee required information in its process to
evaluate the ability of an awardee to repay its loan obligation to the Fund.


Management’s Response

The Fund disagrees with KPMG’s statement that the Fund has not developed sufficient procedures
to determine if awardees are in compliance with the terms of their assistance agreements when they
fail to submit annual information, as required by the award agreements. The Fund’s policy is to

                                            34 

        identify and then contact Awardees with overdue reports. It has several means to identify such
        Awardees and subsequently collect those reports.

        The Fund also disagrees with KPMG’s statement that the Fund does not follow-up on issues
        addressed by the information received. It is the Fund’s policy to review all report information
        submitted by Awardees. Each received report is reviewed by a Fund Compliance analyst who
        compares actual performance against the required performance found in the assistance agreement.
        All instances of non-compliance are addressed via a formal memo to make a final compliance
        determination.

        KPMG Conclusion

        The conditions above were identified during our testing of Fund awards. We were not provided
        sufficient documentation to support that the Fund complied with its monitoring policies.

The Fund’s responses to the findings identified are presented above.        We did not audit the Fund’s
responses and, accordingly, we express no opinion on them.

INTERNAL CONTROLS OVER PERFORMANCE MEASURES

As required by OMB Bulletin No. 07-04 in our fiscal year 2007 audit, with respect to internal control
related to performance measures determined by management to be key and reported in the Program
Discussion and Analysis section, we obtained an understanding of the design of internal controls relating to
the existence and completeness assertions and determined whether these internal controls had been placed
in operation. We limited our testing to those controls necessary to report deficiencies in the design of
internal control over key performance measures in accordance with OMB Bulletin 07-04. However, our
procedures were not designed to provide an opinion on internal control over reported performance
measures and, accordingly, we do not provide an opinion thereon. Based on our procedures, no
deficiencies in the design of internal control over the existence and completeness assertions related to key
performance measures were noted that we consider to be material weaknesses as defined above.

As discussed above, the scope of our work was not sufficient to express an opinion on the statement of
financial position of the Fund as of September 30, 2007 and 2006, and the related statements of operations
and changes in net position and cash flows for the years then ended, and accordingly, internal control
matters over performance measures may have been identified and reported had we been able to perform all
procedures necessary to express an opinion on those financial statements.

This report is intended solely for the information and use of the Fund’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 14, 2007




                                                    35 

                               KPMG LLP
                               2001 M Street, NW
                               Washington, DC 20036




                  Independent Auditors’ Report on Compliance and Other Matters


Inspector General, U.S. Department of the Treasury, and the
Director, Community Development Financial Institutions Fund:


We were engaged to audit the accompanying statements of financial position of the U.S. Department of the
Treasury’s Community Development Financial Institutions Fund (the Fund) as of September 30, 2007 and
2006, and the related statements of operations and changes in net position and cash flows for the years then
ended. These financial statements are the responsibility of the Fund’s management.
We were unable to obtain appropriate representations from management of the Fund with respect to the
accompanying financial statements as of and for the years ended September 30, 2007 and 2006. We
cannot determine the effect of the lack of such representations on the Fund’s financial position as of
September 30, 2007 and 2006, or the results of its operations or its cash flows for the years then ended.
Because management of the Fund did not provide us with appropriate representations and we were unable
to apply other auditing procedures to satisfy ourselves as to such representations, the scope of our work
was not sufficient to enable us to express, and we do not express, an opinion on these financial statements
as of and for the years ended September 30, 2007 and 2006, and we have issued our report thereon dated
November 14, 2007 stating this.
The management of the Fund is responsible for complying with laws, regulations, contracts, and grant
agreements applicable to the Fund. As part of obtaining reasonable assurance about whether the Fund’s
financial statements are free of material misstatement, we performed tests of the Fund’s compliance with
certain provisions of laws, regulations, contracts, and grant agreements, noncompliance with which could
have a direct and material effect on the determination of the financial statement amounts, and certain
provisions of other laws and regulations specified in OMB Bulletin No. 07-04. Our audit procedures were
not designed to test the requirements of OMB Bulletin No. 07-04 relating to the Federal Financial
Management Improvement Act of 1996 (FFMIA), which are not considered applicable at the Fund level,
but we did apply limited procedures to aid in the determination of compliance as part of the financial
statement audit of the U.S. Department of the Treasury. We limited our tests of compliance to the
provisions described in the preceding sentence, and we did not test compliance with all laws, regulations,
contracts, and grant agreements applicable to the Fund. However, providing an opinion on compliance
with those provisions was not an objective of our audit, and accordingly, we do not express such an
opinion.

The results of our tests of compliance described in the preceding paragraph of this report disclosed no
instances of noncompliance or other matters that are required to be reported under Government Auditing
Standards or OMB Bulletin No. 07-04. However, we did note one “Other Matter” which is described
below.




                                                                       36 

                                KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                                a member of KPMG International, a Swiss cooperative.
OTHER MATTER

The Chief Financial Officer of the Fund did not sign the management representation letter with respect to
the accompanying financial statements due to her concerns about potential internal control matters in the
operation of the awards programs of the Fund, resulting in her inability to have complete assurance that the
Fund’s programs are not free from waste, fraud, and mismanagement.
As discussed above, the scope of our work was not sufficient to express an opinion on the statement of
financial position of the Fund as of September 30, 2007 and 2006, and the related statements of operations
and changes in net position and cash flows for the years then ended, and accordingly, other instances of
non-compliance with laws, regulations, contracts, and grant agreements may have been identified and
reported had we been able to perform all procedures necessary to express an opinion on those financial
statements.

This report is intended solely for the information and use of the Fund’s management, the U.S. Department
of the Treasury’s Office of Inspector General, OMB, the U.S. Government Accountability Office, and the
U.S. Congress and is not intended to be and should not be used by anyone other than these specified
parties.




November 14, 2007




                                               37                                                 

                                                                                           Exhibit I

                 Community Development Financial Institutions Fund

                   Status of Fiscal Year 2006 Reportable Conditions

                                As of September 30, 2007


Software-in-Development

In performing procedures over the Software-in-Development asset account, we noted that CDFI
Fund management:
•	 had capitalized maintenance costs of $2.5 million that per SOP 98-1, Accounting for the Costs
    of Computer Software Developed or Obtained for Internal Use, should be expensed when
    incurred;

•	 had not transferred completed projects of $538 thousand from the “in-development” account to
   the capitalized software account at the time such projects were considered completed; and

•	 had not recognized the $172 thousand of amortization costs of these projects over their
   estimated useful life.

Had there been a process in place whereby the Fund Manager and Chief Information Officer (CIO)
met on an ongoing basis to discuss software costs, the above issue could have been identified.
Recommendations

We recommend that the Fund Manager and CIO (or their designees) meet at least quarterly to
discuss the status of costs incurred for the Software-in-Development account, including identifying
when such costs will result in a completed software module to be placed in service. The meetings
should also discuss any prior software costs to ensure that the dates such costs are to be placed in
service are still valid.

FY 2007 Status

Based on 2007 audit procedures, this recommendation has been adequately addressed and can be
considered closed.


Grants Monitoring
Our audit revealed that even though the Fund has a system of awards management over its pre-
award and award phases, the Fund has not developed sufficient procedures to determine if grant
funds have been spent in accordance with their award agreements when awardees fail to submit
annual information, including Single Audit reports. Specifically, while the Fund has a process in
place which requires the submission of annual information, including Single Audit reports, used to
monitor awardees compliance with the terms of their assistance awards, it does not adequately
monitor the receipt of this information. Accordingly, this could result in awardees’ using Federal
funds inconsistent with the objectives of the grant; programs and resources may not be protected
from waste, fraud, and mismanagement; laws and regulations may not be followed; excess funds
not spent may not be returned; and reliable and timely information may not be obtained,
maintained, reported, or used for decision-making.

                                            38 

                                                                                         Exhibit I
                                                                                      (continued)

Recommendations

We recommend that the Fund improve post-award monitoring, which will help ensure compliance
with the requirements of Single Audit Act Amendments of 1996, by:

•	 developing a policy where sanctions are applied to awardees past due in submitting any
   component of their annual information, including Single Audit reports, in order to comply with
   OMB Circular A-133, and

•	 increasing the resources dedicated to post-award monitoring; this should include increasing the
   number of professionals fully focused on post-award monitoring and performing more desk
   reviews of information from the grantees on how the funds received were utilized and to
   recover unused granted funds, as necessary.

FY 2007 Status

Based on our 2007 procedures, the condition noted above continued to exist. Therefore, this is
being repeated in the Significant Deficiencies section of our Fiscal Year 2007 Independent
Auditors’ Report on Internal Controls.




                                       39                                               

Financial
Statements and
Notes




          CDFI Fund FY 2006 PAR – Page 40
                            Community Development Financial Institutions Fund
                                    Statements of Financial Position
                                  As of September 30, 2007 and 2006


                                                                                           2007              2006
                                    Assets

 Current assets:
  Fund balance with Treasury (Note 2)                                                  $    59,535,767   $    59,458,807
  Advances and prepayments                                                                     781,050         1,051,723
  Loans receivable, net of allowance for bad
     debts of $772,800 in 2007 and $1,391,688 in 2006                                        2,318,400         4,175,063
  Investments (Note 3)                                                                          75,000           100,000
  Interest receivable                                                                          584,834           516,983
  Other receivables                                                                             18,506                 -
                Total current assets                                                        63,313,557        65,302,576

 Long-term assets:
   Loans receivable, net of allowance for bad
     debts of $14,866,789 in 2007 and $15,283,024 in 2006                                   44,600,366        45,849,073
   Investments, net of fair value adjustments of
     $5,406,326 in 2007 and $4,897,220 in 2006 (Note 3)                                     34,161,359        32,636,249
   Internal-use software, net of accumulated amortization of
     $2,260,486 in 2007 and $1,636,593 in 2006                                               2,106,768         2,730,661
                Total long-term assets                                                      80,868,493        81,215,983

                Total assets                                                           $   144,182,050   $   146,518,559

                     Liabilities and Net Position

 Current liabilities:
  Accounts payable                                                                     $       350,651   $       542,570
  Awards payable                                                                             9,325,573         2,161,241
  Accrued payroll                                                                              239,704           200,115
  Accrued annual leave                                                                         309,834           267,404
                Total current liabilities                                                   10,225,762         3,171,330

 Long-term liabilities:
   Debt (Note 4)                                                                            41,901,850        45,511,849
   Awards payable                                                                            4,021,591         3,295,705
                Total long-term liabilities                                                 45,923,441        48,807,554

                Total liabilities                                                           56,149,203        51,978,884

 Commitments (Note 5)

 Net position (Note 6)                                                                      88,032,847        94,539,675

                Total liabilities and net position                                     $   144,182,050   $   146,518,559



The accompanying notes are an integral part of these statements




                                                     CDFI Fund FY 2006 PAR – Page 41
                      Community Development Financial Institutions Fund
                     Statements of Operations and Changes in Net Position
                          Years Ended September 30, 2007 and 2006



                                                                                2007              2006

Revenue and financing sources:
  Appropriated capital used                                              $      56,558,832    $    57,431,347
  Imputed financing sources- expenses paid by others (Note 8)                      530,728            478,247
  Interest, non-federal                                                          1,343,199          1,275,509
  Interest, federal                                                                128,981            248,342
  Dividends                                                                        251,722            270,852
  Realized gain on disposition of investments                                      154,118            118,781
    Total revenue and financing sources                                         58,967,580         59,823,078

Expenses:
  CDFI grants                                                                   34,248,315         33,287,740
  BEA grants                                                                     9,620,922         10,337,645
  Administrative (Note 10)                                                      13,781,097         15,433,520
  Bad debt expense (gain)                                                         (437,299)         1,147,331
  Administrative expenses paid by others (Note 8)                                  530,728            478,247

    Total operating expenses                                                    57,743,763         60,684,483

  Treasury borrowing interest                                                    2,344,795          2,799,199
  Unrealized loss on investments                                                   509,106          1,500,000
    Total expenses                                                              60,597,664         64,983,682

Shortage of revenue and financing sources
 under expenses (Note 9)                                                 $      (1,630,084)   $    (5,160,604)

Changes in net position:

Net position, beginning of year                                          $      94,539,675    $   107,532,735
Shortage of revenue and financing sources
  under expenses                                                                (1,630,084)        (5,160,604)
Other changes (Note 7)                                                          (4,876,744)        (7,832,456)

    Net position, end of year                                            $      88,032,847    $    94,539,675



The accompanying notes are an integral part of these statements




                                              CDFI Fund FY 2006 PAR – Page 42
                           Comm unity Dev elopme nt Financial Ins titutions Fund
                                       Sta tements of Cash Flows
                              Ye ars Ende d Se ptember 30 , 20 07 a nd 20 06


                                                                                      2007                2006
Cash flows from operating activities:
  Shortage of revenue and financing sources
    under expenses                                                                $    (1,630,084)    $   (5,160,604)
  Adjustments affecting cash flow:
    Bad debt (gain) expense                                                               (437,299)         1,147,331
    Appropriated capital used                                                         (56,558,832)        (57,431,347)
    Realized gain on disposition of investments                                           (154,118)          (118,781)
    Unrealized loss on investments                                                         509,106          1,500,000
    Proceeds from disposition of investments                                               219,902            486,834
    Amortization expense                                                                   623,893            712,331
    Write-off of internal-use software in development                                          -            2,505,341
    Decrease (increase) in advances and prepayments                                        270,673           (320,397)
    Increase in investment in awardees                                                  (2,075,000)               -
    Increase in interest receivable                                                        (67,851)          (233,512)
    Increase in other receivables                                                          (18,506)               -
    Decrease in accounts payable and accrued payroll                                      (152,330)           (95,103)
    Increase (decrease) in awards payable                                                7,890,218         (5,262,967)
    Increase in accrued annual leave                                                        42,430             21,798

                Net cash used by operating activities                                 (51,537,798)        (62,249,076)

Cash flows from investing activities:
    Acquisition of internal-use software                                                     -              (329,433)
    Loans disbursed                                                                     (995,000)         (6,957,528)
    Collection of loan principal                                                       4,537,669           2,368,206

                Net cash provided (used) by investing activities                       3,542,669          (4,918,755)

Cash flows from financing activities:
  Appropriations received                                                             55,454,434          55,000,000
  Appropriations cancelled                                                             (3,456,953)        (3,363,017)
  Appropriations rescinded                                                                    -             (550,000)
  Borrowings from Treasury                                                              1,390,524          7,574,474
  Subsidy repayments to Treasury                                                         (315,393)        (1,488,092)
  Loan payments to Treasury                                                            (5,000,523)        (2,624,516)

                Net cash provided by financing activities                             48,072,089          54,548,848

                Net change in Fund balance with Treasury                                   76,960         (12,618,982)

Fund balance with Treasury, beginning of year                                         59,458,807          72,077,789

Fund balance with Treasury, end of year                                           $   59,535,767      $   59,458,807



The accompanying notes are an integral part of these statements




                                                CDFI Fund FY 2006 PAR – Page 43
Notes to Financial Statements
September 30, 2007 and 2006


(1) Summary of Significant Accounting Policies
     (a)   Reporting Entity
           The Community Development Financial Institutions Fund (the Fund) was created as a bipartisan initiative
           in the Riegle Community Development and Regulatory Improvement Act of 1994 (Public Law No. 103-
           325). The Fund was placed in the Department of the Treasury and began operations in July 1995.

           The Fund operates various programs aimed at expanding the availability of credit, investment capital, and
           financial and other services in distressed urban, rural, and Native American communities. The Fund is
           intended to help create a national network of financial institutions dedicated to community development
           that leverages private resources (financial and human) to address community development needs.

           The major programs operated by the Fund are the Community Development Financial Institutions
           Program (consisting of a Financial Assistance and Technical Assistance Component), the New Markets
           Tax Credit Program, the Bank Enterprise Awards Program, and Native American Initiatives.

           The Community Development Financial Institutions (CDFI) Program provides financial and technical
           assistance awards to certified community development financial institutions (CDFIs) which in turn
           provide services to create community development impact in underserved markets. Financial assistance
           awards take the form of grants, direct loans, and equity investments. Technical Assistance grants provide
           assistance to start-up and early-stage CDFIs and entities planning to become CDFIs.

           The Fund implemented the New Markets Tax Credit (NMTC) Program during fiscal year 2002. Under
           this program, the Fund provides an allocation of tax credits to Community Development Entities (CDEs),
           which use these credits to attract private sector investment. Proceeds from these investments are used for
           community development purposes. Unlike the Fund’s grant programs, the allocation of tax credits to
           CDEs has no effect on the financial statements of the Fund.

           The Bank Enterprise Awards (BEA) Program provides incentives to insured depository institutions
           (banks and thrifts) to invest in CDFIs and to increase their lending and financial services in distressed
           communities. Program participants are selected based on projected achievements. The awards are
           disbursed only after the activities have been implemented successfully, to ensure that only completed
           activities are recognized and that the Fund’s limited dollars are effectively leveraged with private capital.

           Through Native American Initiatives, the CDFI Fund provides grants to help create CDFI’s and to build
           the capacity of existing Native CDFIs that serve primarily Native American, Alaska Native, and Native
           Hawaiian communities.

     (b)   Basis of Presentation
           The American Institute of Certified Public Accountants (AICPA) has designated the Federal Accounting
           Standards Advisory Board (FASAB) as the standards-setting body for financial statements of federal
           governmental entities, with respect to the establishment of accounting principles generally accepted in the
           United States of America. FASAB has indicated that financial statements prepared based upon
           accounting standards published by the FASB may also be regarded as in accordance with generally
           accepted accounting principles for those federal entities, such as the Fund, that have issued financial
           statements based upon FASB accounting standards in the past. Accordingly, consistent with historical



                                           CDFI Fund FY 2006 PAR – Page 44
      reporting, the Fund financial statements are presented in accordance with accounting standards published
      by the FASB.

      Certain amounts in the prior year financial statements have been reclassified to conform to the current
      year presentation.

(c)   Fund Balance with Treasury
      The Fund does not maintain cash in commercial bank accounts. The U.S. Department of the Treasury
      (Treasury Department) processes cash receipts and disbursements. Fund Balance with Treasury is
      composed primarily of appropriated and borrowed funds (financing and program accounts) that are
      available to pay liabilities and finance authorized award and purchase commitments.

(d)   Fair Value of Financial Instruments
      The fair value of the Fund’s financial instruments was determined as discussed below:

      1) Fund Balance with Treasury

        The carrying amount approximates fair value for Fund balance with Treasury because of the liquid
        nature of the funds with Treasury.

      2) Loans Receivable and Debt

        The carrying amount of loans receivable and debt approximates fair value because the related interest
        rates approximate current rates for similar loans and debt.

      3) Investments

          None of Fund’s investments are in publicly traded entities for which a share price can be readily
          obtained; accordingly, the Fund estimated the fair value of investments as follows:

             Non-voting equity securities and limited partnership interest – Several factors were considered in
              estimating fair value for these investments, including, the cost of the investment, developments
              since the acquisition of the investment, the financial condition and operating results of the
              investee per their financial statements, the long-term potential of the business, recent share or unit
              prices paid, and other factors generally pertinent to the valuation of investments.

              The Fund, in making its evaluation, has relied on financial data of awardees and, in many
              instances, on estimates by the management of the awardees as to the potential effect of future
              developments.

             Convertible debt securities – Fair values were estimated using the same methodology as used for
              non-voting equity securities described above, based on the assumption that the securities were
              converted into stock.

             Secondary capital securities – These investments have terms similar to loans, and accordingly fair
              values were estimated by discounting future projected cash flows at the Treasury rate of securities
              with similar maturities.

             Certificates of deposit – The carrying amount approximates fair value because of the liquid nature
              of the investments.




                                      CDFI Fund FY 2006 PAR – Page 45
      4) Advances and Prepayments, Interest Receivable, Other Receivables, and Other Liabilities

          The carrying amount of advances and prepayments, interest receivable, other receivables, and other
          liabilities approximate fair value as they represent the amounts expected to be realized or paid.

(e)   Loans Receivable
      The Fund provides assistance by making direct loans to certain CDFI Program awardees. Loans are
      reported as receivables when disbursed, reduced by a 25% default allowance. The Office of Management
      and Budget negotiated a 25% default allowance with the Fund to estimate future losses if adequate
      historical information is not available. Historical information is not available, and will not be available
      for some time due to the following: 1) the majority of loans made by the Fund require either balloon
      payments at maturity, or principal payments commencing shortly before the maturity date; and 2) most of
      these loans have not yet matured (the maturity date of a small number has been extended). The
      borrowers, in accordance with the repayment schedules, have made timely interest and principal
      payments and there have been a minimal amount of write-offs to date.

(f)   Interest Receivable
      Interest is accrued on the outstanding loans receivable principal balances and investments based on stated
      rates of interest.

(g)   Investments
      The Fund provides assistance to certain for-profit CDFI program awardees by purchasing non-voting
      equity and convertible debt securities and to Federal credit union awardees by purchasing certificates of
      deposit and by providing secondary deposits. Investments in CDFI program and Federal credit union
      awardees are stated at fair value.

      In the event the Fund’s evaluation results in an adjustment to fair value, an unrealized gain or loss is
      recorded and the investment balance is adjusted accordingly.
      The Fund is restricted from owning more than 50% of the equity of awardees and from controlling their
      operations. The Fund considers convertible subordinated debentures to be equity investments because
      they exhibit sufficient characteristics of equity securities. For example, convertible subordinated
      debentures entitle the Fund to any dividends in the non-voting common stock into which it is convertible
      as if the Fund had converted the debentures into such stock prior to the declaration of the dividend.

(h)   Internal-Use Software
      Internal-use software represents the completed phases of various software placed in service pertaining to
      1) processing applications – this software automates the award application submission process; 2)
      geocoding – web-based software that geocodes addresses, map census tracts and counties, and enables
      applicants to determine the funding eligibility of census tracts and counties under CDFI’s various
      programs; and 3) the Community Investment Impact System (CIIS) – a web-based data collection system
      for CDFI’s and Community Development Entities.
      The software is amortized using the straight-line method over the estimated useful life of seven years.
      Amortization expense for the years ended September 30, 2007 and 2006 was $623,893 and $712,331,
      respectively.
      During fiscal year 2006, the Fund determined that $2.5 million of internal-use software in development as
      of September 30, 2005 was not going to have a future benefit, and so was charged off to operations with a




                                     CDFI Fund FY 2006 PAR – Page 46
      corresponding recognition of appropriated capital used. There is no internal-use software in development
      as of September 30, 2007 and 2006.

(i)   Awards Payable
      CDFI Program grant expense is recognized and awards payable are recorded when the fund is made
      aware, in writing, that the awardee has met the conditions required for payment and the Fund approves a
      grant disbursement to be made. BEA Program grant expense is recognized and awards payable are
      recorded when the Fund approves the BEA award to be made (i.e. at the time the funds are obligated).

      The current and long-term portions of awards payable represent amounts estimated to be paid within the
      next twelve months (current portion) and thereafter (long-term portion) based on prior award payment
      experience.

(j)   Retirement Plans
      CDFI Fund employees participate in the Civil Service Retirement System (CSRS) or the Federal
      Employees’ Retirement System (FERS). The FERS was established by the enactment of Public Law 99-
      335. Pursuant to this law, FERS and Social Security automatically cover most employees hired after
      December 31, 1983.

      Employees hired prior to January 1, 1984, were provided an opportunity to join either FERS and Social
      Security or remain in CSRS.

      For all employees, a Thrift Savings Plan (TSP) account is automatically established, and the employee
      can have up to a predetermined maximum amount withheld from their base salary, which is deposited into
      their TSP account. For FERS employees only, the Fund makes matching contributions ranging from 1%
      to 4% for employees who contribute to their TSP account (there is no matching contribution for CSRS
      employees).

      In addition, CDFI Fund employees participating in CSRS have 7% of their base salary withheld which is
      contributed into a Retirement Fund. The Fund contributes the same amount into the Retirement Fund.

      FERS employees and CSRS reinstatement employees are eligible to participate in the Social Security
      program for retirement. In these instances, the Fund remits the employer’s share of the required
      contribution.

(k)   Annual, Sick and Other Leave
      Annual leave and compensatory leave is accrued as a liability when earned by the employee, and the
      accrual is reduced as leave is taken. The balance in this accrued liability account is computed using
      current pay rates. Sick leave and other types of non-vested leave are expensed as the leave is taken.

(l)   Debt
      Debt represents borrowings payable to the Treasury Department that were made to fund direct loans made
      by the CDFI Program. Principal repayments to the Treasury Department are required to be made based
      on the collections of loans receivable.

(m)   Contingencies

      The Fund also had employment related cases (e.g., discrimination, Equal Employment Opportunity
      Commission, etc.) in which a loss may be reasonably possible, but for which a range of potential loss
      could not be determined.




                                     CDFI Fund FY 2006 PAR – Page 47
      (n)   Revenue and Financing Sources
            The Fund receives the majority of its funding through appropriations from the U.S. Congress. The Fund
            receives two-year appropriations that may be used, within statutory limits, for awards and operating
            expenses. Appropriations are recognized as revenues at the time the Fund’s grants are recorded as
            expenses, and when administrative expenses and provision for bad debts covered by budgetary resources
            are incurred.

            Occasionally, the Fund receives dividends on its equity investments and may use those funds for awards
            and operating expenses.

            Additional revenue is obtained from interest received on direct loans to the public and on uninvested
            funds in the direct loan financing account held by the Treasury Department.

      (o)   Tax Status
            The Fund, as a government entity, is not subject to federal, state, or local income taxes and, accordingly,
            no provision for income tax is recorded.

      (p)   Use of Estimates
            The preparation of the financial statements requires management to make estimates and assumptions that
            affect the reported amounts of assets and liabilities, disclosures of contingencies at the date of the
            financial statements and the reported amounts of revenues and expenses during the period. Actual results
            could differ from these estimates.



(2)   Fund Balance with Treasury
      Fund balance with Treasury as of September 30, 2007 and 2006 consisted of the following components:
                                                                2007               2006

                   Available                          $        2,885,074      $   2,075,642
                   Obligated                                  54,796,049          54,798,076
                   Expired                                     1,854,644           2,585,089
                                                      $       59,535,767      $   59,458,807

      Fund balance with Treasury includes appropriated and borrowed funds available to pay liabilities and to finance
      authorized award and purchase commitments.




                                            CDFI Fund FY 2006 PAR – Page 48
(3)   Investments
      Investments relate to capital provided to CDFI Program awardees and consist of the following as of September
      30, 2007 and 2006:
                                                                              2007                2006

      Investments, at Cost
        Non-voting equity securities                              $     28,554,820        $     26,479,820
        Convertible debt securities                                      2,573,882               2,573,882
        Secondary capital securities                                     5,000,000               5,000,000
        Limited partnership interest                                     3,288,983               3,354,767
        Certificates of deposit                                            225,000                 225,000
             Investments, at cost                                       39,642,685              37,633,469
      Reserve for unrealized losses
        Non-voting equity securities                                     (4,050,000)            (4,000,000)
        Convertible debt securities                                        (459,106)                -
        Limited partnership interest                                       (897,220)              (897,220)
             Total reserve for unrealized losses                         (5,406,326)            (4,897,220)

              Investments, at fair value                          $     34,236,359        $     32,736,249

      Non-voting equity securities consist of non-voting common stock held in for-profit CDFI Program awardees
      (preferred non-voting stock is held in two awardees).

      Convertible debt securities consist of non-interest bearing convertible subordinated debentures. As of
      September 30, 2007 and 2006, one debenture of $2 million matures January 2048 with the option to convert
      into 200,000 shares of non-voting class B common stock at a $10 per share conversion price.

      The other convertible debt security is with a bank holding company that is in the process of negotiating a sale of
      its assets. The original amount of the security is $573,882; however, the amount to be received by the Fund is
      contingent upon the selling price of the holding company assets and the outcome of discussions (expected to be
      completed during FY 2008) regarding amounts that the related debt holders will accept in full payment of their
      debt (including that which is held by the Fund).

      The Limited Partnership interest consists of a Class B limited partnership interest in Sustainable Jobs Fund, LP,
      an interest in Pacific Community Ventures, and three units of preferred interest in Shorebridge Capital LLC.

      Secondary capital securities consist of investments that cannot be redeemed prior to scheduled redemption
      dates.

      Certificates of deposits are investments in federal credit union awardees, and have interest rates ranging from
      0 percent to 2 percent.

      Investments included as current assets represent certificates of deposit that mature within the next twelve
      months.




                                            CDFI Fund FY 2006 PAR – Page 49
(4)   Debt
      Debt consists of amounts borrowed from the U.S. Treasury Department and included the following activity for
      the years ended September 30, 2007 and 2006:
                                                                                      2007              2006

      Beginning balance                                                      $      45,511,849    $   40,561,891
      New borrowings                                                                 1,390,524         7,574,474
      Repayments                                                                    (5,000,523)       (2,624,516)
                       Ending balance                                        $      41,901,850    $   45,511,849


      The earliest principal repayment due date to Treasury is September 30, 2009. Principal payments on this debt
      as of September 30, 2007 are as follows:

                       Fiscal Year                                               Principal Payments
                         2009                                                       $1,318,162
                         2010                                                        2,188,709
                         2011                                                              -
                         2012                                                          652,006
                         2013                                                        3,121,109
                         Thereafter                                                 34,621,864
                                                                                  $41,901,850

      During fiscal year 2007, the Fund borrowed $1,027,553 to finance current year direct loan commitments and
      $362,971 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
      3.55% to 6.48%, depending on maturity dates or risk categories. The Fund repaid $5,000,523 in principal to the
      U.S. Treasury from collections of loans receivable.

      During fiscal year 2006, the Fund borrowed $7,026,103 to finance current year direct loan commitments and
      $548,371 to meet annual interest payments due to the Treasury Department, at interest rates ranging from
      3.55% to 5.47%, depending on maturity dates or risk categories. The Fund repaid $2,624,516 in principal to the
      U.S. Treasury from collections of loans receivable and deobligation of a previous loan obligation.

      Interest paid for the years ended September 30, 2007 and 2006 was $2,344,796 and $2,799,199, respectively.


(5)   Commitments
      (a)    Operating Leases
             The Fund leases office space from the General Services Administration in the Homer Building located in
             Washington, D.C. under the terms of an operating lease (renewed in FY 2007) which expires in January
             2012. The Fund also leases equipment under the terms of an operating lease. The total operating lease
             expense was $1,365,792 and $1,350,395 for the years ended September 30, 2007 and 2006, respectively.




                                           CDFI Fund FY 2006 PAR – Page 50
            Future minimum payments due under these operating leases as of September 30, 2007 were as follows:

                                                               Minimum lease
                     Fiscal Year                                  payments
                        2008                                    $1,175,582
                        2009                                      1,402,533
                        2010                                      1,353,060
                        2011                                      1,353,060
                        2012                                        479,208
                                                                $5,763,443

            FY 2008 minimum lease payments include the effect of forgiveness of two months of rent, negotiated as
            part of the lease renewal.

      (b)   Award and Purchase Commitments
            As of September 30, 2007 and 2006, award commitments amounted to $38,304,553 and $39,112,608,
            respectively. Award commitments relate to CDFI Program and Native Initiative Program awards which
            were approved by Fund management but not disbursed as of the end of the year. These award
            commitments are not considered liabilities at year-end because the awardees have not met the conditions
            required for payment. Award commitments pertaining to the Bank Enterprise Award (BEA) Program of
            $13,347,164 and $5,456,946 as of September 30, 2007 and 2006, respectively, are excluded from these
            amounts since they are reflected as liabilities on the Fund’s balance sheet.

            Purchase commitments of $4,353,444 and $10,757,159 as of September 30, 2007 and 2006, respectively,
            relate to the unexpired portion of contracts, and purchase orders relating to goods and services not yet
            received.



(6)   Net Position
      Net position as of September 30, 2007 and 2006 consisted of the following:
                                                                                  2007              2006
      Unexpended appropriations:
        Unobligated available                                                $   14,394,542   $   13,820,167
        Unobligated expired                                                       1,854,644        2,585,089
        Undelivered orders                                                       41,061,091       47,896,471

                      Total unexpended appropriations                            57,310,277       64,301,727

      Cumulative results of operations                                           30,722,570       30,237,948
                                                                             $   88,032,847   $   94,539,675




                                           CDFI Fund FY 2006 PAR – Page 51
(7)   Other Changes in Net Position
      Other changes in net position for the years ended September 30, 2007 and 2006 were as follows:

                                                                                      2007                 2006

      Appropriations received                                                  $   54,505,779       $     55,000,000
      Appropriation for Subsidy Reestimate                                            948,655                      -

      Appropriation Cancelled                                                       (3,456,953)          (3,363,017)
      Appropriation Rescinded                                                                  -           (550,000)
      Appropriation Used                                                           (56,558,832)         (57,431,347)
      Downward Reestimate Adjustment                                                  (315,393)          (1,488,092)
                             Total other changes in net position, net $             (4,876,744) $         (7,832,456)



(8)    Imputed Financing

      Imputed financing represents specific expenses relating to the Fund paid for by another Federal organization.
      The components of imputed financing for the years ended September 30, 2007 and 2006 are as follows:
                                                                                     2007               2006

      Pension Cost (CSRS Retirement Plan)                                      $      63,497    $         48,894
      Pension Cost (FERS Retirement Plan)                                             (3,221)                 14
      Health Insurance (Health Benefits Program)                                     257,705             226,154
      Life Insurance (Group Life Insurance Program)                                      791                 722
      Audit Fees                                                                     211,956             202,463
                     Total                                                     $     530,728    $        478,247

(9) Shortage of Revenue and Financing Sources Under Expenses
      The shortage of revenue and financing sources under expenses for fiscal year 2007 and 2006 includes
      $1,139,363 and $4,252,113, respectively, of grants and subsidies that were funded from the Fund’s no-year
      account. The no-year account consists of the proceeds from the redemption of investments (see note 3 for a
      description of the types of investments) as well as income received from these investments.

      Pursuant to the Fund’s authorizing legislation, the no-year account can be used to fund new awards. Unlike
      Fund awards that are made out of appropriated funds (which serve to increase grant expenses as well as
      appropriated capital used and so have no effect on the shortage of revenue and financing sources under
      expenses), awards funded from the no-year account only affect grant expenses, and so serve to increase the
      shortage of revenue and financing sources under expenses. Because such amounts funded from the no-year
      account were significantly lower in fiscal year 2007 than in fiscal year 2006, the shortage of revenue and
      financing sources under expenses for fiscal year 2007 is significantly lower than in fiscal year 2006.




                                             CDFI Fund FY 2006 PAR – Page 52
(10) Administrative Expenses
     Administrative expenses consist of the following for the years ended September 30, 2007 and 2006:

                                                                                 2007             2006

     Personnel compensation and benefits                                   $    5,819,004   $    5,763,075
     Travel                                                                       258,618          208,637
     Rent                                                                       1,603,348        1,542,237
     Contractual services                                                       4,774,550        4,428,911
     Write-off of software in development (note 1h)                                    —         2,548,174
     Information technology systems maintenance                                   490,811          144,228
     Amortization                                                                 623,893          712,331
     Supplies and printing                                                        168,697           64,079
     Other                                                                         42,176           21,848

                     Total                                                 $   13,781,097   $   15,433,520




                                         CDFI Fund FY 2006 PAR – Page 53
Appendices




             CDFI Fund FY 2006 PAR – Page 54
CDFI Fund FY 2006 PAR – Page 55
CDFI Fund FY 2006 PAR – Page 56
CDFI Fund FY 2006 PAR – Page 57
CDFI Fund FY 2006 PAR – Page 58
Appendix C
GLOSSARY OF TERMS
ALLOCATION (OF TAX CREDITS)

Through the New Markets Tax Credit Program, the
CDFI Fund provides a Community Development Entity
with the authority to sell tax credits to investors in
exchange for an investment in the CDE.

BANK

Any organization engaged in any or all of the various
functions of banking, i.e., receiving, collecting,
transferring, paying, lending, investing, dealing,
exchanging, and servicing (safe deposit, custodianship,
agency, trusteeship) money and claims to money both
domestically and internationally.

In its more specific sense, the term bank refers to
institutions providing deposit facilities for the general
public, including insured depository institutions.
Banking institutions may be classified into two broad
groups: (1) commercial banks and their central banks;
and (2) noncommercial bank institutions. Included in the
latter group are such institutions as savings and loan
associations, mutual savings banks, and credit unions.
These institutions are often referred to as thrift
institutions, although commercial banks also provide
savings and time deposit accounts.


BANK ENTERPRISE AWARD (BEA) PROGRAM

Through the Bank Enterprise Award (BEA) Program,
the CDFI Fund provides awards to insured depository
institutions that increase their level of activities in the
form of loans, investments, services, and technical
assistance within distressed communities. BEA Program
awardees can also provide financial assistance to CDFIs
through grants, stock purchases, loans, deposits, and
other forms of financial and technical assistance. In
general, an award is made based on the lender’s success
in certain BEA Program-qualified activities that were
projected in the application for BEA CDFI Funds. The
BEA Program regulations are found at 12 CFR Part
1806.




                                             CDFI Fund FY 2006 PAR – Page 59
COMMUNITY DEVELOPMENT ENTITY (CDE)

Through the New Markets Tax Credit Program, the
CDFI Fund certifies an entity as a CDE if it is a duly
organized entity that is treated as a domestic corporation
or partnership for federal income tax purposes and that
(a) has a primary mission of serving, or providing
investment capital for, Low-Income Communities or
Low-Income Persons; and (b) maintains accountability
to residents of Low-Income Communities through their
representation on any governing board of the entity.


COMMUNITY DEVELOPMENT FINANCIAL
INSTITUTION (CDFI)

Community Development Financial Institution – a
nongovernmental entity that meets the following
eligibility criteria and is certified by the CDFI Fund as
such:

        1. Has a primary mission of promoting
           community development;
        2. Serves an eligible investment area or
           targeted population;
        3. has a predominant business activity of
           providing Financial Products, loans or
           certain equity investments;
        4. In conjunction with its loans or development
           investments, provides development activities
           and services that promote community
           development (ex. financial management
           technical assistance, financial or credit
           counseling); and
        5. Maintains accountability to residents of the
           investment area or targeted population
           through representation on its governing
           board or otherwise.

Additional eligibility criteria apply if the entity is a
depository institution holding company or an insured
depository institution. The CDFI Fund’s requirements
for CDFI certification and eligibility are found at 12
CFR 1805.200.




                                             CDFI Fund FY 2006 PAR – Page 60
COMMUNITY DEVELOPMENT FINANCIAL
INSTITUTIONS (CDFI) CDFI FUND

A government corporation within the Department
of the Treasury, created to promote economic
revitalization and community development through
investment in and assistance to CDFIs, including
enhancing their liquidity. It was created by Congress
and has the duties and responsibilities specified in the
Riegle Community Development and Regulatory
Improvement Act of 1994.


COMMUNITY INVESTMENT IMPACT SYSTEM
(CIIS)

CIIS is a web-based system managed by the CDFI Fund
that collects and stores institution-level and transaction-
level data from CDFIs and CDEs.

EQUITY

The raising of capital by a corporation issuing or selling
its stock (in contrast with “debt,” which is the raising of
capital by issuing bonds or borrowing money).


CDFI FUNDING ROUND

Each CDFI Fund application and award is identified
with a CDFI Funding round that corresponds to the
fiscal year for which the CDFI Fund issues a Notice of
Awards Availability (NOFA).


NATIVE AMERICAN CDFI
ASSISTANCE (NACA) PROGRAM

Through the Native American CDFI Assistance (NACA)
Program, introduced in FY 2004, the CDFI Fund
provides Financial Assistance awards to eligible Native
American CDFIs to support their financing activities, as
well as Technical Assistance awards to existing Native
CDFIs and Native organizations seeking to become or
create a CDFI. A Native American CDFI is defined as a




                                              CDFI Fund FY 2006 PAR – Page 61
CDFI with greater than 50 percent of its activities
directed to Native American Communities. In FY 2005,
the NACA Program replaced the NACD and NATA
Programs.


NATIVE AMERICAN CDFI
DEVELOPMENT (NACD) PROGRAM

Replaced by the NACA Program in FY 2005, the Native
American CDFI Development (NACD) Program
provided Technical Assistance grants to “sponsoring
organizations,” such as Tribes or entities primarily
serving Native American Communities, to help create
Native American CDFIs.


NATIVE AMERICAN TECHNICAL ASSISTANCE
(NATA) COMPONENT

Replaced by the NACA Program in FY 2005, the Native
American Technical Assistance (NATA) Component
was similar to the NACD Program, the difference being
that the NATA Component was limited to CDFIs and
entities proposing to become CDFIs. NATA grants were
provided as part of the Technical Assistance Component
of the CDFI Program.


NEW MARKETS TAX CREDIT (NMTC)
PROGRAM

Through the New Markets Tax Credit (NMTC) Program,
the CDFI Fund provides allocations of tax credits to
qualified Community Development Entities (CDEs).
The CDEs in turn provide tax credits to private sector
investors in exchange for their investment
dollars; investment proceeds received by the CDEs are
be used to make loans and equity investments in low-
income communities.


QUALIFIED EQUITY INVESTMENT (QEI)

An investment in a CDE through the NMTC Program
meeting the following criteria: the investment proceeds
are used by the CDE to make Qualified Low-Income
Community Investments (QLICIs), the CDE designates
the investment as a QEI, and the investment is made by




                                           CDFI Fund FY 2006 PAR – Page 62
the CDE within 5 years from the date of its NMTC
allocation.

QUALIFIED LOW-INCOME COMMUNITY
INVESTMENT (QLICI)

1) An investment made by a CDE in, or loan to, any
qualified active low-income community business; 2) the
purchase from a CDE of any such loan; 3) financial
counseling and other services to businesses in, and
residents of, low-income communities; and 4) any equity
investment in, or loan to, any CDE.

TECHNICAL ASSISTANCE

Activities that enhance the capacity of an organization
to carry out its business and purpose, such as training of
management and other personnel; developing programs
and loan or investment loan products; improving
financial management and internal operations; and
enhancing an organization’s community impact.

UNDERSERVED COMMUNITY

An Underserved Community may include the following:
1) An Investment Area under the CDFI Program;
2) A Targeted Population under the CDFI Program;
3) A Low-Income Community under the NMTC
Program; and/or 4) A Distressed Community under the
BEA Program. Many Native American Communities
also qualify as Underserved Communities. “Native
American Communities” are defined as any Native
American, Alaska Native or Native Hawaiian
populations, lands or Census-equivalent entities, with the
exception of State or Tribal Designated Statistical Areas.




                                             CDFI Fund FY 2006 PAR – Page 63
